<html>
<title> - IMPROVED MANAGEMENT OF DEPARTMENT OF DEFENSE TEST AND EVALUATION FACILITIES</title>
<body><pre>[Senate Hearing 107-650]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-650
 
   IMPROVED MANAGEMENT OF DEPARTMENT OF DEFENSE TEST AND EVALUATION 
                               FACILITIES

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2002

                               __________

         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
81-638 PDF                 WASHINGTON DC:  2002
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

               Judy A. Ansley, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                 MARY L. LANDRIEU, Louisiana, Chairman

EDWARD M. KENNEDY, Massachusetts     PAT ROBERTS, Kansas
ROBERT C. BYRD, West Virginia        BOB SMITH, New Hampshire
JOSEPH I. LIEBERMAN, Connecticut     RICK SANTORUM, Pennsylvania
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
JEAN CARNAHAN, Missouri              TIM HUTCHINSON, Arkansas
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky


                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

   Improved Management of Department of Defense Test and Evaluation 
                               Facilities

                              May 21, 2002

                                                                   Page

Wynne, Hon. Michael W., Principal Deputy Under Secretary of 
  Defense for Acquisition, Technology, and Logistics.............     4
Young, Hon. John J., Jr., Assistant Secretary of the Navy for 
  Research, Development, and Acquisition.........................    10
Christie, Hon. Thomas P., Director, Operational Test and 
  Evaluation.....................................................    13
Krings, Hon. John E., Member, Defense Science Board Task Force on 
  Test and Evaluation Capabilities...............................    21

                                 (iii)


   IMPROVED MANAGEMENT OF DEPARTMENT OF DEFENSE TEST AND EVALUATION 
                               FACILITIES

                              ----------                              


                         TUESDAY, MAY 21, 2002

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:44 a.m. in 
room SR-232A, Russell Senate Office Building, Senator Mary L. 
Landrieu (chairman of the subcommittee) presiding.
    Committee members present: Senators Landrieu, Levin, Bill 
Nelson, Bingaman, and Roberts.
    Committee staff members present: David S. Lyles, staff 
director.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Kenneth M. Crosswait, professional 
staff member; Richard W. Fieldhouse, professional staff member; 
Peter K. Levine, general counsel; and Arun A. Seraphin, 
professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Edward H. Edens IV, professional 
staff member; Brian R. Green, professional staff member; 
William C. Greenwalt, professional staff member; Carolyn M. 
Hanna, professional staff member; Mary Alice A. Hayward, 
professional staff member; Ambrose R. Hock, professional staff 
member; and Thomas L. MacKenzie, professional staff member.
    Staff assistants present: Dara R. Alpert and Leah C. 
Brewer.
    Committee members' assistants present: Marshall A. Hevron 
and Jeffrey S. Wiener, assistants to Senator Landrieu; William 
K. Sutey, assistant to Senator Bill Nelson; John A. Bonsell, 
assistant to Senator Inhofe; George M. Bernier III, assistant 
to Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders, assistant to Senator Allard; James 
P. Dohoney, Jr., assistant to Senator Hutchinson; and Derek 
Maurer, assistant to Senator Bunning.

         OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Good morning. Our hearing will come to 
order on our test and evaluation (T&E) oversight. Let me begin 
by thanking all of our witnesses for being here this morning 
and thank my Ranking Member for his good work in support of 
this subcommittee and his leadership so ably on this 
subcommittee for many years.
    I will get right into my opening statement. We have just 
one panel this morning. Both Senator Roberts and I will have 
opening statements, we will then hear from the four of you, and 
then go into a short round of questions. This is a very 
important subject matter to the both of us, and it was Senator 
Roberts' suggestion that we have this meeting to hear from the 
Department of Defense about the recommendations that I have 
made on test and evaluation. Our subcommittee is very 
interested in making sure that our test and evaluation process 
is what it should be, not just for the warfighter and for their 
safety, but for the taxpayers who are looking for a strong and 
smart military, and it is the goal of our subcommittee to help 
get us to that goal.
    So because of that goal, this subcommittee 3 years ago 
initiated legislation requiring a task force to report on the 
state of the Department's test and evaluation facilities. That 
report, as you all know, because two of you were involved in 
processing it, in December 2000 found that the services had 
reduced their institutional funding of the Department's major 
test and evaluation ranges by about $1 billion since 1990. As a 
result of this inadequate funding the task force concluded, 
quote, `` Testing is not being conducted adequately, and there 
is growing evidence that the acquisition system is not meeting 
expectations as far as delivering high-quality, reliable, and 
effective equipment to our forces.''
    Just to cite a few of the findings of that report, the 
recapitalization rate for the Department's T&E has reached 400 
years. The aging T&E infrastructure increases the probability 
of failure in test support capabilities that could cause 
significant and costly schedule slippages. In recent years, 66 
percent of the Air Force programs have stopped operational 
testing due to major systems or safety shortcomings, which was 
quite alarming.
    Since 1996, approximately 80 percent of Army systems tested 
failed to achieve reliability requirements during operational 
testing. As a result, the Director concluded the acquisition 
process failed to deliver systems to the warfighter that meet 
reliability and effectiveness requirements, so obviously we 
have some work to do here. There are probably a number of ways 
that we could correct this deficiency, but if these 
deficiencies are acknowledged today, clearly the status quo is 
not going to do.
    Today we will hear from two representatives of the 
Department of Defense, our Director of Operational Test and 
Evaluation (DOT&E), Mr. Christie, and from Mr. Jack Krings, the 
former Director of Operational Test Evaluation who played a key 
role in this task force.
    I want to say that we welcome the Department's views on 
this proposed legislation, and we will do our best to address 
the legitimate concerns that you raise today. We want to make 
sure that we get this legislation right, or that if we 
acknowledge that these deficiencies exist, we actually come up 
with a way to significantly improve them.
    At the same time, I want to say how strongly I share the 
views expressed by this report. As it says, we owe it to our 
men and women in uniform to ensure that the weapons systems 
they carry into battle will work as they are intended. Adequate 
testing of weapons is not an abstract concept. Lives depend on 
it, and taxpayers, particularly in this day, as we reach and 
stretch for every dollar to protect us against 
counterterrorism, would demand that we not waste our resources 
by putting something in the field and then having to go back to 
the test lab.
    So this testing is important, and I think the way that we 
are funding it, there is a disincentive, because the money 
comes out of the procurement, basically, or the other parts of 
the program. There is a disincentive for testing that I think 
is crucial to the development of these very sophisticated 
systems.
    So with that, let me call on Senator Roberts to make a 
statement. We hope to work with you, gentlemen, to see what we 
can work out in this regard.
    Senator Roberts.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. Thank you, Madam Chairman. This morning, 
the Subcommittee on Emerging Threats and Capabilities meets to 
receive testimony on legislative proposals to reform DOD's test 
and evaluation infrastructure, as you have already indicated. 
The December 2000 Defense Science Board (DSB) report and the 
latest annual report by the Director of Operational Test and 
Evaluation raise serious concerns about the Department's test 
and evaluation capabilities. I commend you, Madam Chairman, for 
your attention to these problems.
    I think we need to ask the Department whether the solution 
that has been put forth in this legislation is the one that 
they prefer and can implement in the real world of 
transformation and the ever-changing asymmetrical warfare 
threats that we face today. During the markup of this year's 
defense authorization bill, I expressed some reservations about 
this proposal, but the overall goals of the legislation are 
indeed very laudable. I had concerns about how this proposal 
was developed. The committee had not held hearings or engaged 
the Department. For this reason, I wanted to have this hearing 
in order to hear the Department's views.
    I certainly thank my chairman and my colleague for holding 
this hearing, but I still think we may have put the cart before 
the horse in addressing this issue. The committee has already 
acted on this proposal, and we are now simply holding the 
hearing, but the chairman is right, problems have been 
identified with the current funding, capabilities, and 
facilities in the test and evaluation infrastructure, and that 
is something that we should address. However, this subcommittee 
needs to adequately discuss the underlying approach of how the 
Department tests its weapons systems.
    The test and evaluation process has grown up around an 
acquisition culture which has been all too content in taking a 
15 to 20 year time period to develop and deploy any new weapons 
systems. Does the entire test and evaluation process need to be 
reevaluated in a period of rapid commercial technology 
development, joint experimentation, spiral development, and 
rapidly fieldable prototypes and, if so, will the conclusions 
reached 2 years ago by the Defense Science Board hold up to 
scrutiny under new criteria? We need to adapt testing to new 
ways of buying, rather than simply conform our buying to old, 
inflexible ways of testing.
    I also have substantive reservations about the legislative 
proposal contained in the committee-passed bill that I would 
like our witnesses to address. For example, the establishment 
of the DOD test and evaluation enterprise would continue a 
trend of centralizing various service functions. This could 
further erode the military services' Title X responsibilities 
for equipping and also training our forces. If centralization 
really is more efficient, then why should the military services 
have any acquisition function at all?
    I am confident that the military services do add value. I 
am going to ask some questions about that, so I am a little 
skeptical about the moves to complete centralization of 
additional acquisition functions. I am also concerned about the 
test waiver provision in the bill, which appears to be somewhat 
inflexible. This provision may be establishing a long and 
bureaucratic process for a program office to obtain needed and 
legitimate waivers. The net effect is that it may take even 
longer.
    However, I thank my Madam Chairman for holding today's 
hearing, and I look forward to hearing from our witnesses on 
the Department of Defense's efforts to address these 
challenges. I hope we can learn from this hearing, and at the 
end of the comments, I would tell my colleague and friend, that 
I think we might be able to work this out. I have already 
talked to Mr. Wynne about the possibility of having the 
Department report back to the subcommittee in a very short time 
period in regards to how they would implement either this 
legislation, or any suggestions that they might make which 
would certainly give us a smoother ride when this bill gets to 
the floor.
    So with that, I thank you very much for the hearing.
    Senator Landrieu. Thank you, Senator Roberts.
    Senator Bingaman, do you have any opening remarks?
    Senator Bingaman. I do not.
    Senator Landrieu. Thank you.
    Mr. Wynne, if you would proceed please.

  STATEMENT OF HON. MICHAEL W. WYNNE, PRINCIPAL DEPUTY UNDER 
SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Mr. Wynne. Thank you very much, Madam Chairman and members 
of the subcommittee. Thank you for inviting me here today to 
talk about the proposed legislation to improve the management 
of the Department of Defense test and evaluation facilities. 
Our military is the premier force in the world, and part of 
their superiority is due to the systems that support them. 
Developing, testing, producing, and supporting these systems is 
what we do best. Everyone, the testers, the acquisition 
personnel, and the requirements community are all motivated to 
provide the very best systems possible.
    The perspective I bring is bigger, of acquisition itself. 
While testing provides the extra assurance that the system will 
work and meet its requirements, test and evaluation is but one 
of the many supporting processes that deliver military 
capability to our warfighters, and the bottom line is, our 
systems work. They are working every day across the world from 
training, to peacekeeping, to warfighting, and if you would not 
mind, Madam Chairman, I would like to put up a chart to 
illustrate what I perceive is the cycle that we are talking 
about.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The outer circle is the weapons systems development that 
begins with the Joint Requirements Oversight Council, which 
consists of the Vice Chairman of the Joints Chiefs as chair, 
and all of the service chiefs as members. They vote on the 
requirements that the weapons system has to meet before it goes 
to the servicemen and women of this country. They establish the 
requirements that the systems have to do. The testing and 
development is a smaller circle, and this is where this 
legislation is focused, in that smaller circle, to essentially 
correct what is perceived to be deficiencies in the larger 
circle.
    In fact, they enhance the development of the larger circle, 
because it highlights to the Joint Requirements Oversight 
Council some overreaches or some underreaches in weapons 
development. The point here is that the waiver dispositions are 
more important than the waivers themselves, and ultimately 
every waiver that is created in test must be disposed of, or 
the operation requirement must be changed. To that effect, some 
of the items cited for the Army, for example, have gone through 
astounding reliability increases since this report was 
published, and what was found during development and 
operational testing.
    The acquisition process today is roughly in balance. There 
is a natural tendency for the acquisition community to want to 
get systems to our warfighters faster so that the warfighter 
will have the advantage of the best technology available today. 
It is also natural for the test community to have a desire to 
hold back systems from being fielded until all problems are 
identified, weaknesses are fixed, and the system meets all 
requirements.
    All parties are part of an open debate, and have a seat at 
the table. Decision makers get the best advice available, and 
ultimately the warfighter benefits from this process. 
Therefore, while this proposal contains some areas of mutual 
concern, we believe it will impede the overall weapons systems 
development cycle and therefore are opposed to it in its 
present form.
    We recognize that there are some problems with our current 
test process, and many of our facilities appear to lack 
appropriate funding, but the proposed legislation will not fix 
these problems. The legislation creates an imbalance in the 
acquisition process by providing more control to the Director 
of Operational Test and Evaluation, raising his authority as a 
member of the acquisition team. Shifting control will not 
correct our problems. The ranges will not be funded to the 
level we prefer, and the test waivers will still be necessary, 
and test failures will still recur.
    In fact, as we proceed through trying to shorten the cycle 
of development to get this technology to our warfighters, we 
would anticipate that we would encounter more risk, not less 
risk, and that therefore we would be encountering more test 
failures, not less test failures. I would like to address these 
two issues of test waivers and infrastructure funding. The 
Defense Science Board and the DOT&E reports highlight specific 
programs as problems because of the number of failures or 
waivers during operational tests. Tests cannot be viewed as a 
pass/fail situation. Test failures can provide valuable 
information, and waivers and deviations may not only be 
necessary but, because of the technical complexity of the 
business we are in, may make good military and business sense.
    The proposed legislation attempts to eliminate deviations 
from the test and evaluation master plan by requiring approval 
of either the DOT&E or the Secretary or Deputy Secretary of 
Defense. I do not think we really want the Secretary of Defense 
to be approving test plan waivers for acquisition programs. He 
has enormous demands on his schedule, and requiring signatures 
on test plan waivers at his level would slow testing, and would 
slow system fielding at the end of the day. A better solution 
would be a notification that is provided in the DOT&E annual 
report as it relates to specific systems and disposition of the 
waivers and process to provide this committee and others in 
Congress feedback on how the waivers and test failures created 
actually were fixed later in the cycle.
    The DOT&E already must approve the operational test plans 
under the test and evaluation master plan, and is aware of test 
plan changes. Giving the DOT&E more control over this waiver 
process does not mitigate the need for waivers. Waivers are 
given because the designers know a system will not meet a 
specific requirement, or failed some portion of the test, but 
would still provide very useful military capability to the 
warfighter.
    A good example of why waivers are important is the F-18E/F 
program. This system had about 50 waivers once it failed its 
operational test. Some of the waivers were due to one of its 
subcomponent, the advance-targeting, forward-looking, infrared 
system. This system was simply not ready, and therefore could 
not be tested with the rest of the aircraft. Instead, an 
existing FLIR, forward-looking infrared radar, was used, and 
those portions of the tests were waived. Once that system 
became ready, it will be installed and tested. From those 
original 50 waivers, 30 have been tested, and the remaining 
will be tentatively completed by 2006. So I ask, should we have 
slowed the process and perhaps impacted the production line of 
F-18s until the ATFLIR is ready? I do not think so.
    The same could be said of the Predator, which did not pass 
tests and thus needed waivers to be fielded. Should the system 
be slowed and the fielding delayed of a system that we know to 
be better than anything we have used before? It should be okay 
to have waivers and failures, because the big picture is that 
even if a system does not meet all of its requirements, it may 
still have greater capability than anything that currently 
exists.
    One of the reasons cited for waivers in the DSB and DOT&E 
reports is that our systems are not receiving enough 
development testing before proceeding to operational testing. 
This is happening in some cases. We already have work in 
progress to resolve this issue. This is sometimes the case 
because there is not enough money to sufficiently test programs 
because they were underfunded from the start, or they are 
operating under such tight budget constraints in that anything 
less than a fully successful test program requires additional 
testing and, therefore, additional dollars.
    There are things we are doing, in fact, to correct this 
process. We are realistically pricing programs and also 
requiring full funding of our programs. The defense acquisition 
executive has mandated that the cost analysis independent group 
estimates are used unless there is a compelling reason to use 
different estimates. This will help ensure that all elements of 
the program, to include testing, are not short-changed because 
of affordability problems.
    Another reason programs are reducing developmental testing 
is schedule crunch, a reaction to the tremendous pressure we 
put on program managers to speed up systems development. This 
pressure comes not just from the Department but also from you, 
Congress, to get this technology into our warfighters' hands, 
but again, our readiness of a program for tests must be weighed 
and balanced against the other concerns for military utility, 
the cost, and the schedule, and that balance is currently in 
hand, and management is receiving adequate information to make 
decisions.
    The other major issue cited is inadequate funding for test 
infrastructure. The proposed legislation creates a centralized 
activity to manage the test ranges, and fences range investment 
accounts. The present budget provides the best balance of 
funding for the full scope of the DOD's mission. There is just 
not enough money in the budget to do everything we want. The 
test community has a place at the table when decisions are made 
to allocate funding. Frankly, setting up a fenced account will 
only move money from other needs, not solve funding shortfall 
problems.
    Also, centralized management will not resolve the problem 
of range management, but will only result in a new office that 
will require extra reporting, extra financial management, and 
ultimately delay effective management. This amounts to another 
agency that could slow down our acquisition cycle times even 
more, and it could have an even worse impact on training, which 
is a large user of test ranges, but will have little say in 
this investment.
    In managing our T&E facilities there is a delicate balance 
of training and testing, because training for both service and 
joint exercises often involves the test ranges. A good example 
of this is the Nellis Air Force Base, which is one of the Air 
Force's primary test facilities for aircraft and weapons 
systems, and home to Red Flag, an annual exercise that involves 
not only joint services, but also international forces.
    In fiscal year 2000, 93 percent of sorties flown at Nellis, 
83 percent of sorties flown at Eglin Air Force Base, and 60 
percent of the sorties at Edwards Air Force Base were, in fact, 
for training, not for tests. Placing the ranges and facilities 
under the control of the DOT&E, rather than the services where 
it is presently held, could have an impact on the readiness of 
our servicemen if it becomes a contentious issue of investment.
    We recognize that we have more challenges ahead, 
specifically as we continue to emphasize evolutionary 
acquisition and spiral development to shorten the weapons 
systems acquisition and fielding cycle times. Because the 
Secretary and Congress desire to speed up the transition of 
technology into usable equipment, we may see more test waivers 
as we add iterations of capability. Our desire is to get the 
warfighter equipment that is better than anything they have in 
order to give them a decisive advantage. We think that the 
current balance allows for that.
    We must continue to involve the DOT&E in the establishment 
and exercise of test programs and spiral development, but just 
as we do not want the designer to be responsible for setting 
test requirements, the specific design requirements should be 
left to the services and not driven by what the tester thinks 
must be tested to ensure effectiveness and suitability.
    The tests developed would provide, do provide the right 
kind of management data for good decisions and corrective 
actions. Rather than striving for zero waivers, we should 
strive for better data and better analysis, which the current 
DOT&E provides extremely well.
    There are some parts of the legislation that we do support. 
We agree that the need to include the test functional community 
in our ongoing human capital strategic planning and our 
contribution-based workforce demonstration project is great. We 
also agree that we need a DOD-wide accounting system for 
testing, but this should be part of the ongoing financial 
management renovation and management program that we are 
involved in.
    In closing, we appreciate the good intentions of Congress. 
However, we feel that this proposed legislation will not result 
in the goal of an integrated and well-managed T&E process, nor 
will it provide a well-managed and integrated acquisition 
process, which is the larger circle that we referred to. To 
provide better capabilities to the warfighter faster, is what 
our intentions are. We would like to continue to work with you 
and the DOT&E to find solutions to the challenges that the 
Defense Science Board raised.
    Thank you. I am happy to have John Young with me today, the 
Navy's senior acquisition executive. He would like to provide a 
few comments from the perspective of the services, if you do 
not mind.
    [The prepared statement of Mr. Wynne follows:]

              Prepared Statement by Hon. Michael W. Wynne

    Madam Chairman and members of the subcommittee:
    Thank you for inviting me here today to talk with you about the 
proposed legislation `` Improved Management of Department of Defense 
Test and Evaluation (T&E) Facilities.'' The importance of T&E in 
ensuring our systems work is critical and we appreciate your interest 
in this topic. Our military is the premier force in the world and part 
of their superior advantage is due to the exceptional systems that 
support them. Developing and fielding systems so that a soldier is 
confident a gun will fire when the trigger is pulled, a bomb will find 
its correct target, or a communication system will send a call for 
reinforcements, is what the Department's acquisition, technology and 
logistics workforce does best. There are no second chances in our 
business. Testing provides the extra assurance that a system will work 
when it has to and under all types of conditions.
    Improving our T&E process has been the subject of many studies such 
as the Defense Science Board's (DSB) Report on Test and Evaluation 
released in September 1999, the DSB's Report on Test and Evaluation 
Capabilities released in December 2000, and most recently, the Defense 
Operational Test and Evaluation (DOT&E) Annual Report for fiscal year 
2001. These reports investigated and identified ways to improve our 
process and your legislation reflects many of the recommendations from 
those studies.
    Some of these same recommendations were reviewed last August and 
again in December by Secretary Rumsfeld's Senior Executive Council 
(SEC). The SEC, a council made up of the Secretary, Deputy Secretary, 
the Under Secretary for Acquisition, Technology and Logistics, and 
Service Secretaries, reviewed the issues of centralized funding and 
management of the test and management infrastructure. As a result of 
the SEC discussions, the Service Secretaries approach is: (1) for the 
services to work together to effectively utilize and manage resources 
across the three services; (2) that neither a separate OSD range 
management office nor centralized funding is necessary; and (3) that 
the services already have sufficient incentives to effectively manage 
these enterprises and to adequately fund needed facilitation. We 
presently have in place a Vice-Chief-level Board of Directors that 
provides cross-service use and accountability of T&E facilities. 
Furthermore, OSD does influence T&E funding through the Defense 
Planning Guidance (DPG) and the budget process.
    We agree with some areas of the proposed legislation such as 
section 235 that calls for human capital planning of the T&E workforce 
and section 234 that creates a single DOD-wide accounting system. The 
Department is working on both of these areas with our human capital 
planning efforts and our initiative to improve financial management 
systems across DOD. We have reservations about creating a centralized 
activity to manage the test ranges as proposed in section 231 or 
creating fenced range investment accounts as proposed in section 232 
and section 233. We believe that centralized management likely would 
not resolve the problem of range management but could result in a new 
office that will require extra reporting, extra financial management, 
and ultimately delay effective management.
    One key area the proposed legislation fails to recognize is the 
fact that our test ranges and facilities also support vital operational 
training as well as operational testing. T&E is the insurance policy 
that assures the Department that a system will meet its requirements, 
and as with any insurance policy, balance is the key. In managing our 
T&E facilities, there is a delicate balance of testing and training 
because training for both service and joint exercises often involves 
the test ranges. A good example of this is Nellis Air Force Base, one 
of the Air Force's primary test facilities for aircraft and weapon 
systems, and home to Red Flag, an annual exercise that involves not 
only joint services, but also international forces. In fiscal year 
2000, 93 percent of sorties flown at Nellis, 83 percent at Eglin Air 
Force Base, and 60 percent of the sorties at Edwards Air Force Base 
were for training. Likewise, the Navy's Atlantic Underwater Test and 
Evaluation Center (AUTEC) facilities support T&E of many underwater 
systems, but also supports sound testing of submarines, necessary for 
pre-deployment operational readiness. Both in the DSB report and the 
proposed legislation, it is very unclear as to what authority the 
central agency holds, but it seems to unbalance the test and training 
that each service manages each year.
    The legislative proposal is also not clear on the delineation 
between developmental testing and operational testing. Developmental 
testing is important for learning a system's characteristics and 
capabilities and the results of such tests often impact the design. 
Operational testing confirms the systems performance once design is 
complete. Most of the T&E performed at the test ranges and facilities 
is developmental in nature and not within the purview of the DOT&E. In 
fiscal year 2001, the Navy's developmental testing accounted for 58 
percent of the total workload. Delegating control of the test ranges 
and facilities to DOT&E would put developmental testing under the 
cognizance of operational test. This would create significant cost and 
schedule impacts to crucial developmental testing. The very nature of 
the test community is to continue testing until all issues are 
resolved. Placing control of the test facilities under the testers 
could create an endless do-loop of testing.
    The imbalance between test and training, and developmental and 
operational testing, would be compounded when money is moved from 
program accounts and fenced in range investment accounts as recommended 
by section 232. While we are concerned with infrastructure issues such 
as better calibration, or getting more data more quickly, placing 
investment in a ``frozen account'' might result in unbalanced 
investment that will impact training. We are concerned with the 
continuing problem surrounding overhead costs and their impact to 
program mangers (PMs) when they use the test ranges and facilities. 
However, a range investment account established as a percentage of the 
RDT&E account from each service would essentially result in a tax on 
each of the PMs, regardless of their test requirements and would 
introduce certain rigidities into the system that would be undesirable.
    The DSB reports highlight a potential management issue with regard 
to the quantity of waivers from approved test requirements in the TEMP, 
but do not address the actual impact of these waivers on our forces. 
The proposed legislation in section 236 eliminates deviations from the 
Test and Evaluation Master Plans (TEMPs) without the approval of the 
DOT&E or the Secretary or Deputy Secretary of Defense, without re-
delegation, and requires notification to Congress. This provision 
removes any flexibility in testing, which is undesirable when we are 
weighing a system's readiness against the need to provide it to the 
warfighter. DOT&E already must approve test plans under the TEMP and is 
aware of test plan changes. The proposed language is not clear as to 
the level of deviation that is addressed. Assuming it refers to major 
test events and not specific system characteristics, threat 
presentations or other program or tester level decisions, an 
alternative approach could be notification provided in the DOT&E annual 
report as related to specific systems.
    We recognize we have more challenges ahead, specifically as we 
continue to emphasize evolutionary acquisition and spiral development 
to shorten the weapon system development life-cycle. Spiral development 
allows us to get militarily useful capability to our warfighters and at 
less cost by producing and deploying systems based on mature 
technologies that will satisfy only a portion of the objective need. 
Because the Secretary desires to speed up the transition of technology 
into usable equipment through incremental fielding of capability, we 
may need the increased flexibility that test waivers can provide as we 
add iterations of capability, especially if the performance of that 
technology is not completely understood. Additionally, in order to 
obtain an early understanding of what we are facing from a support and 
maintenance point of view, we may want to deploy equipment that may 
require prudent testing waivers. In certain cases, development and 
operational testing, by their very nature, cannot exactly replicate the 
real world, and we need to gain real world experience to get the most 
accurate level of performance. Many times the early gear is for 
training units, which is the perfect place to gain feedback and 
introduce corrective actions. Our desire is to get to the warfighter 
equipment that is better than anything they have. Safety of our people 
will always be our number one concern, but beyond safety, we must not 
let the best be the enemy of the good when it comes to operational 
requirements.
    In closing, I want to express my appreciation to Congress for their 
support. Congress has long been a valued partner in our quest for 
change throughout the Department. The T&E area has been no different. 
We appreciate the support of Congress, but we feel this proposed 
legislation will not result in the goal of an integrated and well-
managed T&E process.
    Thank you for the opportunity to provide this statement for the 
record.

    Senator Landrieu. That will be fine. Thank you, Mr. Wynne.
    Mr. Young.

 STATEMENT OF HON. JOHN J. YOUNG, JR., ASSISTANT SECRETARY OF 
      THE NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION

    Mr. Young. Madam Chairman, distinguished members of the 
subcommittee, thank you very much for this opportunity to 
discuss the management of the Defense Department's test and 
evaluation facilities.
    One of the mandated responsibilities of the Service 
Secretaries includes the requirement to train and equip their 
respective services. The acquisition process implied in this 
responsibility includes taking the necessary steps to ensure 
that the systems that we put in the hands of our soldiers, 
sailors, airmen, and marines will operate as intended in combat 
situations. Lives depend on it. In order to fulfill this 
obligation, test resources and facilities are an integral part 
of each service's acquisition process, and must be maintained 
by the services in order to provide both acquisition and life 
cycle support to our systems.
    The most fundamental aspect of our acquisition process is 
that we continually conduct test and evaluation of systems 
throughout all stages of development. Build a little, test a 
little, and learn a lot does work, and that is how we are doing 
business. By test a little, I really mean a lot of testing 
along the way, not just a few large tests at major milestones. 
This testing philosophy becomes even more crucial in an 
evolutionary or spiral acquisition process as we specifically 
strive to deliver capability to the fleet today that is good 
enough, while continuing development on the ultimate solution 
for the future.
    As the Navy's Service Acquisition Executive (SAE), and 
speaking for the other SAEs, we are all interested in 
optimizing the test infrastructure throughout this entire 
process. The Major Range Test Facility Base (MRTFB) facilities 
discussed in this proposed legislation are just one part of the 
overall T&E infrastructure that we work very hard to support. 
If you take the Arleigh Burke class Guided Missile Destroyer 
(DDG) as an example, we support contractor facilities where we 
conduct extensive testing, including many developmental tests, 
or DT events. We support the Aegis Computer Program Center in 
Dahlgren, Virginia, where we do extensive software development 
and integration testing. We support the Surface Combatant 
Systems Center at Wallops Island, Virginia, where we test and 
evaluate developmental and in-service systems together. We 
support the mechanical and electrical test facility at the 
Surface Ship Engineering Station in Philadelphia, Pennsylvania 
where we develop, test, and evaluate integrated engine, damage 
control, and navigation systems. We support the Naval Surface 
Warfare Center in Dahlgren, Virginia, where we conduct live 
fire gun evaluations, and finally, the Navy supports the AUTEC 
Range, a MRTFB facility where DDGs undergo test and evaluation 
of systems at sea during combat systems qualifications trials.
    Each element of this integrated test infrastructure plays 
an essential role, and modernization and sustainment decisions 
must be made considering the complete test infrastructure. It 
is this total integrated testing infrastructure that Secretary 
England and his colleagues believe must be managed within each 
respective service.
    The test resources also go beyond facilities and equipment. 
It includes the people. Each of the services works hard to 
develop officers and civilians who have experience in the test 
community, as well as on acquisition programs. New platforms 
and weapons benefit greatly from the service-specific 
experience of people manning the test ranges. Further, the 
entire Defense Department benefits when these skills are 
brought to bear on the test programs of other services. It is 
not necessary or helpful to centralize the funding and 
management of these facilities, and the skilled people who 
oversee testing activities.
    Like the Army and the Air Force, the Department of the Navy 
continually seeks to ensure that there is a balanced, full 
spectrum test infrastructure. To break a portion of these 
facilities out from the whole and fence the resources that go 
with them will lead to a suboptimization of the overall 
integrated management that I talked about, and does not 
recognize all of the facilities involved that are necessary to 
carry out development tests and operational tests. As you have 
heard, all of the Service Secretaries felt very strongly about 
retaining this T&E facility responsibility and oversight when 
the issue was considered before the Senior Executive Council 
earlier this year.
    In addition to the need for integration across the range of 
test ranges and facilities, the services also have integrated 
the test facilities into their engineering capabilities. For 
example, as part of the previous four rounds of BRAC, the 
Department of the Navy has created full spectrum Warfare 
Centers. These Warfare Centers support research development, 
test, and evaluation, as well as in-service engineering for our 
existing assets. Test resources and facilities are critical to 
the way these full spectrum Warfare Centers develop and support 
Navy and Marine Corps systems. MRTFB ranges and facilities are 
integral parts of many of these Centers. The synergy developed 
from this collocation and the sharing of human and equipment 
capital has greatly improved Navy and Marine Corps acquisition 
programs. An effort to disassociate the test and evaluation 
facilities from our Warfare Centers would damage this synergy.
    As you have heard, Navy Major Range and Test Facility Bases 
are also used for more than operational testing. In fiscal year 
2001, development testing was 58 percent of the workload. 15 
percent of the workload was for other Department of Defense 
users. In that year, our Navy MRTFB ranges and facilities were 
used for F-22, B-2, C-17, and Patriot testing, and only 4 
percent of the fiscal year 2001 workload was for Navy 
operational testing, while almost 15 percent supported 
operational readiness through training and other uses. The 
Defense Department is efficiently and very effectively using 
all its MRTFB and other test assets.
    Within our overall T&E planning, the Navy has a three-step 
process to aggressively manage its MRTFB resources and 
facilities. First, the MRTFB competition process validates 
whether or not newly nominated facilities should be included in 
this MRTFB base, and revalidates whether the existing 
facilities should remain. Second, budget reviews starting at 
the individual billet level are conducted to determine the 
required usage and the funding that is required for each MRTFB 
facility. Finally, rigorous investment reviews are conducted 
using documented investment road maps to validate test and 
evaluation proposals. Through these processes, the overhead 
costs of MRTFB facilities are determined and centrally funded 
under the Navy's test and evaluation sponsor, N91. Development 
and acquisition programs are charged the incremental costs of 
the testing and operations at these facilities.
    Finally, Admiral Fallon, the Vice Chief of Naval 
Operations, is the Navy's member on the Tri-Service Vice Chief 
Board of Directors. This group provides coordinated oversight 
management of the various MRTFB facilities.
    The bottom line is that we have a plan and oversight 
process, and we support this plan within our Department-wide 
priorities, and we maintain the facilities that are used by all 
components of the Defense Department.
    Likewise, consistent with Secretary Wynne's comments, the 
Navy has a specifically defined process for granting waivers to 
the testing conducted under a Test and Evaluation Master Plan. 
Today's complex weapons consist of multiple integrated 
subsystems, and the entire system cannot be stopped for the 
delay of a single subsystem. Test exceptions follow a rigorous 
review process that includes the Program Manager, Program 
Executive Officer, Commander Operational Test and Evaluation 
Force, the Resource Sponsor, and the Navy's Executive Agent for 
T&E, N91. If the program is under DOT&E oversight, we must gain 
written concurrence from DOT&E for exceptions and waivers.
    Of over 315 programs, only 12 in the Navy have requested 
exemptions, resulting in a total of 93 test requirements waived 
or deferred. Mr. Christie has noted that he believes the 
services have successfully addressed some of the concerns about 
the waiver process.
    To summarize, MRTFB facilities are an integral part of a 
total test infrastructure for each service. Further, this test 
infrastructure is an integral part of our laboratories, warfare 
centers, and development programs. The services are budgeting 
the cost of operating these facilities within the resource 
constraints that affect every program. Finally, when it is time 
to test, there are rigorous processes to ensure that all 
requirements are tested or appropriately deferred to a future 
test.
    We want to continue to communicate fully and openly with 
Congress, industry, our warfighters, and our acquisition 
professionals on these issues. We all share a common goal of 
doing everything it takes to make sure our service members are 
provided with the safest, most dependable, and highest-
performance equipment as quickly as possible within available 
fiscal constraints. We appreciate the support provided by 
Congress, and look forward to working together with this 
subcommittee toward this goal.
    Senator Landrieu. Thank you very much. I appreciate both of 
your statements, and would now ask Mr. Christie and Mr. Krings 
if you will--and you do know that your full testimony will be 
put in the record, so you might want to take this opportunity 
just to summarize all your statements so we can get to some 
questions.

  STATEMENT OF HON. THOMAS P. CHRISTIE, DIRECTOR, OPERATIONAL 
                      TEST AND EVALUATION

    Mr. Christie. Yes. I am also pleased, Madam Chairman, 
Senator Roberts, and Senator Bingaman, to have this opportunity 
to discuss this proposed legislation. As you probably know, I 
served on both of the DSB panels that we are talking about the 
results of--they made quite a few recommendations--but today I 
appear here not as a member of either of those panels, but as 
the Department's DOT&E, a position that this committee honored 
me with confirmation nearly a year ago.
    Never in my wildest dreams, when I served on the DSB panels 
of a couple of years ago, did I dream that I would be called 
upon to implement all of those recommendations.
    Senator Landrieu. Had you known, you would have made less 
of them?
    Mr. Christie. No, no, no, I am not saying that. I 
understood at the time the difficulty that would ensue. I just 
did not realize I would be the stuckee.
    I have, in fact, given, as you requested, an assessment of 
all of your proposals in my written statement. I am not going 
to cover those, but there were 25 recommendations in this last 
report, and within my role as DOT&E, I think we have been able 
to address 16 of these within the building in the past year--
some with a lot of success, some with less success, and some 
with no success, but we have attempted to take them all on. The 
other nine lay outside my responsibilities.
    Let me just talk about a couple of those that we are in the 
process of working that impinge on this entire problem.
    Value of testing. This may seem like a strange topic. 
However, because of the way testing is currently planned and 
funded, articulating its value has become critical to the 
survival of the test ranges and adequate test and evaluation. 
As more and more of the costs of tests and costs of the ranges 
are being charged directly to programs, the ranges find 
themselves having to sell their capability to program managers.
    As test and evaluation overhead and maintenance costs have 
shifted to the individual acquisition programs, the cost of 
testing to program managers has risen. Thus, a program manager 
who chooses to go to a specific range for testing is charged 
not just for the cost of the test, but also for a large 
fraction, in some cases, for the upkeep and maintenance costs 
of that range.
    Needless to say, program managers are not anxious to pay 
for more than their direct costs, and I do not blame them. 
Unfortunately, too often, program officers have tended to avoid 
testing under these circumstances. This is especially true in 
development testing, where the record shows that we have 
brought too many systems into operational tests--and the 
discussions by Mr. Wynne and Mr. Young that went on earlier 
dealt with these--before they were ready.
    The latest Army estimate is that 75 percent of their 
systems fail to meet even 50 percent of their reliability 
requirements in operational tests. My office has been working 
with the test community in an effort to develop some sort of an 
approach to express return on investment from testing for 
program managers.
    Quality of testing. The DSB found that, ``testing is not 
being done adequately.'' The quality of testing can suffer when 
testing is avoided, when adequate capabilities to test do not 
exist, or when the testing is not funded properly in either 
magnitude or phasing. The DSB found existing policies that were 
being used to avoid or defer some testing and, more 
importantly, to avoid evaluation.
    I sent a memorandum to the services on this late last year 
asking them to cease the unilateral waiving of requirements for 
testing, not the waiving of requirements, and requiring that 
all operational requirements be part of their evaluation. There 
has been real evidence, and John spoke to that also in his 
statement, and I think we are well on the way to having solved 
that problem within the Department.
    The last threat to the quality of Government T&E discussed 
by the DSB is funding. The DSB considered the magnitude of the 
funding allocated to T&E by the services as well as its 
phasing, and by phasing I mean that development testing is not 
supported well enough or early enough; hence, systems get into 
operational tests with too many problems. This may sound as if 
it is a developmental test problem. It is in part, but as I 
said before, one significant root cause of this problem is how 
the tests are funded.
    I believe the funding structure has to change to solve this 
problem, and again, this is the institutional funding versus 
program funding that I am talking about.
    The DSB also found the state of the infrastructure, to 
include physical plants, ranges, real estate, instrumentation, 
and other analysis capabilities--targets, personnel, and so 
forth--in need of near-term investment and high-level emphasis. 
The report identified three areas just as examples, and I will 
not go into those now, but adequate targets was one of the 
biggest problems that we found.
    Let me turn now to the recommendations that were not 
implemented. They center on the management of T&E resources. 
The DSB, as part of its response to this committee, recommended 
that DOD create a test and evaluation resource enterprise. As 
envisioned by the task force, the enterprise would, (1) fund 
and manage the DOD T&E organization's workforce and 
infrastructure; (2) it would be at the OSD level under my 
office; (3) it would be funded by transferring the appropriate 
military services' funding for investment, operations, and 
maintenance of the MRTFB test resources and facilities to the 
enterprise; and (4) it would allow the operation of the test 
facilities to remain under service control. We are also 
addressing this problem in the building.
    For example, defense planning for the fiscal year 2004 
budget includes two actions that bear on our efforts to improve 
T&E policies, procedures, and infrastructures. In that planning 
guidance, we are called upon to provide by this fall an 
assessment of how best to make the ranges able to support 
affordable, adequate testing. We are further asked for a review 
of what changes are needed to harmonize the Department's new 
acquisition strategies discussed by Mr. Wynne and Mr. Young 
with respect to testing policies and procedures.
    Both aspects of this guidance are consistent with the 
findings of the DSB, and should lead to consideration of many 
of the topics that are advanced in the proposed legislation, 
because we recognize that current funding policies and 
structure can, in fact, work against adequate testing. However, 
plans and reviews are neither an implementation nor a solution. 
The proposed legislation is a potential solution in line with 
the DSB recommendations.
    The development of a strategic plan for the maintenance and 
modernization of our T&E infrastructure is a much-needed step 
in guiding our efforts to provide a robust T&E capability for 
the future. Today, we have inequities that surface on a case-
by-case basis where we have one service conducting tests in one 
context, and another service with very similar weapons 
conducting a test in a different context. We need to adjudicate 
these differences and bring to bear some standards. This is 
also one of the issues we are looking at very much.
    The second planning item calls for streamlining T&E to 
match the goals of streamlined acquisition. There are those 
who, after observing DOD programs for the last dozen or so 
years, might believe that streamlining T&E is a code word for 
testing less. I do not agree with that assertion. However, in 
order to streamline, I believe we will have to address 
increasing the tempo with which we conduct tests and analyze 
the results. Currently, it is almost as if the schedules at the 
ranges depend on the systems not being ready for test. In fact, 
only about 40 percent of the tests scheduled start on time, 
because the systems are not ready.
    If the latest acquisition initiatives deliver what we hope 
they will, then a greater fraction of programs should be ready 
for testing on or near their schedules. In this respect, I fear 
the T&E community might not be prepared for success in 
acquisition reform. That means the ranges will have to increase 
their capacity to improve, or improve their responses. Right 
now, for example, the Navy has had to pause AIM-9X testing, in 
part because the test infrastructure at the Navy's test site 
cannot keep up with the demands of that one test. This fall, 
there are 15 tests scheduled at the same site.
    In sum, many of the items in the proposed legislation would 
likely be addressed when future defense plans are implemented, 
so what we may have here is a difference in the schedule for 
transformation, not necessarily one of different goals. 
Addressing an issue, however, does not necessarily mean that 
the Department will come up with a solution, much less one that 
matches the DSB recommendations very closely. Nevertheless, the 
direction that the Department is taking is an acknowledgement 
that there is a problem, and improvement is necessary, and you 
have my commitment that I will press to find that appropriate 
solution.
    In summary, then, I can say that the Department largely 
supports the thrust of the DSB report recommendations. We have 
already had some success in implementing the recommendations of 
that report. This legislation seeks to accelerate that 
implementation faster and more thoroughly than what we have 
accomplished or planned so far. A review of the legislation 
shows that it does match the DSB recommendations in many 
respects. It addresses in some cases more fully many of the 
problems that we have identified when we were on the task 
force.
    I thank you for your kind attention to my remarks, I 
believe testing to be a critical part of what we must do for 
our soldiers, sailors, airmen, and marines, and I believe your 
careful consideration of the Defense Science Board 
recommendation reflects that same concern.
    Thank you.
    [The prepared statement of Mr. Christie follows:]

             Prepared Statement by Hon. Thomas P. Christie

    I am pleased to have this opportunity to discuss the proposed 
improved management of Department of Defense Test and Evaluation 
Facilities legislation that implements major Defense Science Board 
(DSB) recommendations with respect to test and evaluation (T&E). Two 
recent DSB reports on T&E, one in September 1999 and another--which 
your committee directed--in December 2000, made a number of 
recommendations for improving the Department's T&E programs. As you no 
doubt know, I served on both of these DSB panels. But I appear here 
today, not as a member of either of those panels, but as the 
Department's Director, Operational Test and Evaluation (DOT&E), a 
position for which this committee honored me with confirmation nearly a 
year ago. I must admit that never in my wildest dreams did I believe, 
as I participated in those two DSB task forces, that I would have the 
opportunity to implement those recommendations.
    You have asked me to provide an assessment of the proposed 
legislation, the current state of the Department's test and evaluation 
facilities, the findings of the DSB task force report and my annual 
report, and any other recommendations to address the problems 
identified by the DSB task force or my annual report.
    While I have some specific comments to make concerning the proposed 
legislation, with your forbearance, I would first like to briefly 
review what has been accomplished since July of last year when I was 
confirmed, with respect to the major recommendations of the December 
2000 DSB Report.
    That report in essence covered five major areas:

        <bullet> The Value of Testing
        <bullet> Management of T&E Resources
        <bullet> The Quality of Testing
        <bullet> Specific T&E Investments
        <bullet> Use of Training Facilities/Exercises for T&E Events

    In all, there were 25 recommendations made with respect to those 
topics. I have, within my role as DOT&E, been able to address 16 of 
these during this past year--some with more success, some with less, 
and some with no success. The other nine lay outside my area of 
responsibility. Let me briefly cover some of the steps we have taken to 
address some of these recommendations.

                          THE VALUE OF TESTING

    The value of testing may seem like a strange first topic for the 
DSB. It should be obvious to everyone that the Department's goal is to 
field weapons that work, and that testing is invaluable as a design 
tool, a means for verifying performance, and ultimately confirming the 
operational effectiveness and suitability of those weapons. But I'm 
concerned that the current funding structure works against adequate 
testing. Because of the way testing is currently planned and funded, 
articulating its value has become critical to the survival of the 
ranges and adequate test and evaluation capabilities. As more and more 
of the cost of tests and the cost of the ranges are being charged 
directly to programs, the ranges find themselves having to ``sell'' 
their capability to program managers.
    As test range overhead and maintenance costs have shifted to the 
individual acquisition programs, the cost of testing to program 
managers has risen. Thus, a program manager who chooses to go to a 
specific range for testing is charged not just for the cost of the 
test, but also for a large fraction of the upkeep and maintenance costs 
of that range. Needless to say, program offices are not anxious to pay 
for more than the direct cost of their testing, and I don't blame them. 
Unfortunately, too often program offices tend to avoid testing under 
these circumstances. This is especially true of developmental testing, 
where the record shows that we have brought into operational test many 
systems before they were ready. The latest Army estimate is that 75 
percent of the systems fail to meet even 50 percent of their 
reliability requirement in their operational tests.
    I have heard program managers say: ``A dollar spent on testing is a 
dollar spent looking for trouble.'' Under the current funding 
structure, one can see why ``articulating the value of testing'' 
becomes necessary for the ranges. Unfortunately, the ranges have not 
been good at it. Government weapons programs do not have the same 
market-created measures as in the private sector to demonstrate the 
value of testing such as warranties, recalls, and class action law 
suits that are real in the private sector and that provide a cost risk 
to industry which testing helps reduce.
    My office has been working with the Army test community on an 
effort that develops an approach to express the return on investment in 
testing for program managers. These approaches include quantifying the 
cost benefit to finding failure modes early to avoid retrofits and the 
life cycle cost benefit from improved reliability when the reliability 
testing is robust. We have also found interest from and are utilizing 
the professional testing organization, the International Test and 
Evaluation Association, which this year will sponsor two symposia with 
the theme ``The Value of Testing.''

                         THE QUALITY OF TESTING

    The DSB found that ``Testing is not being done adequately.'' The 
quality of testing can suffer when testing is avoided, when adequate 
capabilities to test don't exist, or when the testing is not funded 
properly in either magnitude or phasing.
    The DSB found existing policies that were being used to avoid or to 
defer some testing and (more importantly) to avoid evaluation. I sent a 
memorandum to the services on this, asking them to cease the unilateral 
waiving of requirements and requiring that all operational requirements 
be part of the evaluation. The specific policy most obvious was a Navy 
policy that allowed waivers to test and evaluation. There has been real 
evidence of change in specific programs.
    Where adequate test capabilities don't exist, they need to be 
developed. The Central Test and Evaluation Investment Program (CTEIP) 
is part of my responsibility as DOT&E. CTEIP has a number of programs 
aimed at developing and fielding needed improvements to our test 
capabilities. I'll mention some of these later in the context of the 
DSB's recommendations for specific investments, some of which I have 
been able to fund with the limited CTEIP budget and other funds 
available to me.
    The last threat to the quality of government T&E, discussed by the 
DSB, is funding. The DSB considered the magnitude of the funding 
allocated to T&E by the services as well as its phasing. The DSB 
recommended a ``reform of the acquisition process in order to support 
the adequate and robust T&E of new weapons systems that work the first 
time, all the time.'' By phasing I mean that developmental testing is 
not supported well enough or early enough. Hence, systems get into 
operational tests with too many problems. This may sound as if it is a 
developmental test problem. It is in part. But as I said before, one 
significant root cause of the problem is ``how the tests are funded.'' 
The funding structure has to change to solve the problem.

                        SPECIFIC T&E INVESTMENTS

    The DSB ``found the state of the infrastructure--to include 
physical plant, range real estate, instrumentation, data reduction and 
analysis capabilities, targets, personnel, among other facets of test 
planning and conduct--in need of near-term investment and high-level 
emphasis . . .'' Three areas identified--and they were but examples, 
and not a complete list--were frequency management, embedded 
instrumentation, and more realistic targets.

Frequency Management
    With the resources at my disposal, I have been able to invest in 
systems for Advanced Range Telemetry (bandwidth efficient 
instrumentation), a Joint Advanced Missile Instrumentation (a spectrum 
efficient GPS [Global Positioning System] hybrid system) and an 
Enhanced Range Application Program (a flexible data link to support T&E 
and Training). This last project is an example of how the test and 
training communities can position themselves, with respect to 
instrumentation, to work together more closely. This project also 
provides a concrete initiative to begin to implement improvement in the 
fifth and last area discussed by the DSB.

Embedded Instrumentation
    With respect to embedded instrumentation, we planned to initiate 
projects to pursue embedded instrumentation enabling technologies, but 
funding reductions in our testing technology program last year forced 
us to postpone project initiation.
    Subsequent to the DSB, the Department has rewritten the Acquisition 
Regulations. One section in the regulations that is getting attention 
is embedded instrumentation. The current regulation includes a 
requirement for the program manager to consider embedded 
instrumentation. The Department's Business Improvement Council is 
considering an initiative that would require the program manager to 
evaluate embedded instrumentation in the analysis of alternatives. If 
embedded instrumentation promises a cost benefit over the life cycle, 
it would become a requirement for the system. I note that the DSB came 
to its conclusions on embedded instrumentation as it was considering 
the connection between testing and training. Embedding instrumentation 
could make possible a better link between testing and training.

Realistic Targets
    Target problems remain a very serious impediment to realistic 
testing (and training for that matter). The Navy needs a self-defense 
target ship to permit us to adequately test ship defense systems. Our 
missile defense programs need more realistic targets; the target drone 
situation for air-to-air missiles testing and training continues to 
worsen. These aerial targets are needed for a large number of programs. 
Unfortunately again, the way these programs are funded has had a 
negative effect. The first program manager who admits he needs these 
assets will be the one to bear the major part of their cost.
    As I stated earlier, I have addressed some 16 of the 25 
recommendations found in the DSB report in my first months in office. I 
would say that we have made progress on 13 of the 16. Let me now turn 
to the recommendations that were not implemented. They centered on 
management of T&E resources.

                      MANAGEMENT OF T&E RESOURCES

    The DSB--as part of its response to this committee--recommended 
that DOD create a `` Test and Evaluation Resource Enterprise.'' As 
envisioned by the task force, the Enterprise would (1) fund and manage 
the DOD T&E organizations, workforce, and infrastructure, (2) be at the 
OSD level under the Director, Operational Test and Evaluation, (3) be 
funded by transferring the appropriate military service's funding for 
investment, operations, and maintenance of Major Range and Test 
Facilities Base (MRTFB) test resources and facilities to the 
Enterprise, and (4) allow the operations of the test facilities to 
remain under service control.
    Defense plans for fiscal year 2004 include two actions that bear on 
efforts to improve T&E policies, procedures, and infrastructure. We are 
called upon to provide by this fall an assessment of how best to make 
the ranges able to support affordable, adequate testing. We are further 
asked for a review of what changes are needed to harmonize the 
Department's new acquisition strategies with testing policy and 
procedures.
    Both aspects of the guidance are consistent with the findings of 
the DSB and should lead to consideration of many of the same topics 
advanced in the proposed legislation because we recognize that current 
funding policies and structure can work against adequate testing.
    The development of a strategic plan for the maintenance and 
modernization of our T&E infrastructure is a much-needed step in 
guiding our efforts to provide a robust T&E capability for the future. 
There may be a number of ways to implement such a plan. Among other 
things, it would require us to reconcile testing methodologies between 
the services.
    For example, this year we examined two weapons test plans by 
different services against the same intended target set. One weapon 
system was to be tested on an Army range against a moving column of 
remotely controlled armored vehicles with realistic countermeasures and 
with the potential for dust and obscuration that movement brings. The 
other system was to be tested at an Air Force range against a static 
array of hulks with hot plates that were to simulate the signature of 
hot vehicles. Clearly a more balanced strategic view would preclude 
such inequalities.
    Today these inequities surface on a case-by-case basis, usually 
after the services have done their planning and often only during the 
operational test phase. Turning around such planning at that point is 
neither streamlined nor efficient. Hopefully, a well-done strategic 
plan would change that.
    Further, I cannot imagine a strategic plan that did not bring the 
test ranges in line with Sec. 907 of the Strom Thurmond National 
Defense Authorization Act for Fiscal Year 1999, which aimed at cost-
based management. In that sense, the strategic plan would address the 
DSB recommendation for a common financial management system.
    Finally, I cannot imagine a strategic plan that did not address 
much needed improvements in the T&E workforce, which was yet another 
DSB recommendation.
    The second planning item calls for streamlining T&E to match the 
goals of streamlined acquisition. There are those who, after observing 
DOD programs for the last dozen or so years, might believe that 
``streamlining T&E'' is a code-word for ``test less.'' I do not agree 
with that assertion. However, in order to streamline, I believe we will 
have to address increasing the tempo with which we conduct tests and 
analyze the results. Currently, it's almost as if the schedules at the 
ranges depend on systems not being ready for test. In fact, only about 
40 percent of tests start on time because the systems are not ready. As 
I have said before, Lord knows what would happen if all the programs 
that claimed to be ready for testing in 2002 actually showed up for 
testing. If the latest acquisition initiatives deliver what they hope 
for, then a greater fraction of programs should be ready for testing on 
or near their schedules. In this respect, I fear the T&E community 
might not be prepared for success in acquisition reform. That means the 
ranges will have to increase their capacity or improve their 
responsiveness. Right now the Navy has had to pause AIM-9X testing in 
part because the test infrastructure at the Navy's test site cannot 
keep up with the demands of that one test. In the fall, there are 15 
tests scheduled for that one site.
    In some cases, such as the F-22, the inability of the test 
infrastructure to maintain a high tempo of testing, to surge when 
needed, may be slowing down the progress of the program. AIM-9X testing 
is suffering because U.S. Navy and U.S. Air Force QF-4s and their 
ranges are not interoperable. We have also seen delays at the Army's 
White Sands Missile Range due to critical infrastructure staffing 
shortfalls.
    Many of the items in the proposed legislation would likely be 
addressed when future Defense plans are implemented. So what we may 
have here is a difference in the schedule for transformation, not 
necessarily one of different goals. Addressing an issue does not 
necessarily mean the Department would come up with a solution, much 
less one that matches the DSB or the proposed legislation which, I have 
said, follows the DSB recommendations very closely. Nevertheless, the 
direction the Department is taking is an acknowledgement that there is 
a problem and improvement is necessary. You have my commitment that I 
will press to find an appropriate solution.
    Let me now comment on the proposed legislation. First, we recognize 
that it is crafted to fully implement the recommendations of the 
Defense Science Board task force. I can offer you a few observations 
based on my personal experience.
    One problem area that I can point to is the effect the transfer 
will have on the Central Test and Evaluation Investment Program. The 
DSB used CTEIP as the model for organization and process. However, the 
CTEIP was established to develop tools needed for T&E. It would be 
better to keep large-scale operational funds separate from development 
of test equipment.
    1. Section 236 allows deviation from the approved Test and 
Evaluation Master Plan (TEMP) with either Secretary of Defense, Deputy 
Secretary of Defense, or my approval followed by notification to this 
committee within 30 days.
    On the surface, this seems like a good thing. Any substantial 
deviation from a master plan ought to be reviewed carefully, at least 
by my office and that of the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (AT&L) to ensure that test 
adequacy is not jeopardized. So first, there should be a requirement to 
notify our offices of any departures.
    On the other hand, the acquisition regulations encourage tailoring. 
In that context, such tailoring may include no longer producing TEMPs 
as we know them. For example, the Air Force has briefed my staff on 
plans to forego TEMPs as such, and replace them with a combined 
acquisition strategy and testing document. I am concerned that, if 
deviations must be reported, the documents themselves will trend to 
less and less detail making deviations more difficult to detect.
    2. The legislation requires a report and plan by the Under 
Secretary of Defense (AT&L) on improving the T&E workforce.
    This section recognizes that most of the individuals doing testing 
and evaluation in the Department are part of the Acquisition Corps. I 
know that some Senators and Representatives call the Acquisition 
Workforce the ``Pentagon buyers,'' and they are constantly pushing the 
Department to reduce their numbers. So you have put the Under Secretary 
of Defense (AT&L) in a tough spot (not that he isn't in a tough enough 
spot already). But the legislation recognizes the fact that most tester 
positions are currently under the responsibility of the Acquisition 
Corps.
    3. The final section I comment on Section 231 suggests the Under 
Secretary of Defense (AT&L) has responsibility to designate which 
ranges comprise the MRTFB (Major Range and Test Facilities Base). For 
the last 3 years, that responsibility has been with my office. The 
Deputy Secretary signed the new 3200.11 Directive formalizing that 
responsibility 2 weeks ago.
    In summary then, I can say that the Department largely supports the 
thrust of the DSB report. We have already had some success in 
implementing the recommendations of that report. This legislation seeks 
to accelerate that implementation faster and more thoroughly than what 
we have accomplished and planned so far. A review of the legislation 
shows it to match the DSB recommendations in many respects. However, 
the legislation could cause us problems. The Department desires the 
opportunity to discuss the proposed Senate legislative objectives 
internally as well as with your committee. We believe that together we 
can develop a plan, potentially including a legislative proposal that 
addresses the recommendations in an effective manner.
    I want to thank you for your kind attention to my remarks. I 
believe testing is a critical part of what we must do for our soldiers, 
sailors, airmen, and marines. Thank you.

    Senator Landrieu. Thank you very much, Mr. Christie.
    Mr. Krings.

STATEMENT OF HON. JOHN E. KRINGS, MEMBER, DEFENSE SCIENCE BOARD 
         TASK FORCE ON TEST AND EVALUATION CAPABILITIES

    Mr. Krings. Good morning, Madam Chairman and members of 
your subcommittee. Thank you for the opportunity to appear 
before you to discuss my views on the proposed legislation. I 
spent 15 years as a fighter pilot in the Air Force and the Air 
National Guard, and 30 years as an experimental test pilot with 
McDonnell Aircraft Company before appearing here as the first 
DOT&E. I have remained actively engaged in testing since 
leaving the Pentagon.
    First, I want to congratulate you. From my point of view, 
this is the most significant test and evaluation legislation 
since 1983, when Congress, and many of the people that are on 
this committee, established the position of DOT&E. It addresses 
longstanding problems identified more than 30 years ago by the 
President's Blue Ribbon Defense Panel, problems that have been 
underscored by dozens of studies and reports ever since, 
including the 1999 and 2000 reports of the Defense Science 
Board Task Force on Evaluation and the DOT&E's Annual Report 
for Fiscal Year 2001.
    This morning I will comment on the findings, the 
recommendations of these studies, the proposed legislation, the 
current state of the Department's test and evaluation 
facilities, and the basis for the DSB task force findings. From 
my point of view, the committee's recommendations to establish 
a Department of test and evaluation resource enterprise is a 
most important part of the proposed legislation for several 
reasons.
    The current funding for essential maintenance and 
modernization of the test infrastructure is inadequate. We 
recognize this, and we understand why. We recognize this to be 
the services do not make the required investment in test 
resources because test and evaluation competes with service 
programs, which has been mentioned more than once this morning. 
The result is that over a period of decades, service-managed 
and funded test and evaluation facilities have deteriorated to 
the point where they cannot support adequate testing of today's 
systems. These facilities are not able to support adequate test 
and evaluation of new, emerging, and leap-ahead systems without 
prudent investments in modernization. We did not say large, we 
said prudent investments in modernization.
    The enterprise envisioned in this modernization will 
consolidate funding and modernize the infrastructure by looking 
across the Major Range and Test Facility Base and making the 
best investments for all of DOD. The net result is, all the 
services will get the affordable test resources and facilities 
that they need for adequate joint testing of their current and 
future weapons systems.
    As proposed in the DSB report, in addition to consolidating 
the funding, the enterprise will manage these test ranges and 
test facilities through a board of directors with 
representatives from the MRTFB, the military people from the 
MRTFB. This management plan has been discussed, debated, and 
validated, and is a major part of the implementation. 
Essentially, it requires members of the test community from the 
various major ranges and test facilities to participate 
effectively in managing the test resource allocation and 
investment.
    Some will likely argue that the Office of the Secretary of 
Defense is just taking away resources from the services and 
building another bureaucracy. The reality is, test ranges and 
facilities will be better-funded, and they will be intimately 
involved in the decision as to how the money will be spent. As 
a result, a service program manager will have the entire 
national range complex restored and available for testing, not 
a single service capability and, most importantly, there will 
be accountability and sunshine on the process.
    When this administration took office, the defense 
transition team asked me to help two members of the team who 
had already read the DSB 2000 report on test and evaluation 
capability. They said Secretary Rumsfeld wanted a DOT&E that 
could implement the DSB recommendations, and he, the Secretary, 
believed Tom Christie was the best candidate. Tom did not ask 
to be the DOT&E. He had been watching it for years, and knew 
that that was not a smart thing to do. He became a candidate 
only because the transition team convinced him that he was the 
only one that could effectively implement the DSB 
recommendation that he helped author. He has continuously 
avoided any activities or expression that would suggest that he 
is personally seeking additional funding for his own 
organization. The transition team then recommended that Mr. 
Christie appoint a team of outside experts to write an 
implementation plan. I ended up in the same position as Tom, 
not ever expecting to have to do any of this, but I was asked 
to lead this team.
    We wrote and delivered a comprehensive implementation plan 
and schedule. We recommended a unified concept like the concept 
in the DSB report, giving prominent roles to the technical 
directors in the field. The implementation plan includes a 
financial accounting system that will enable the Department to 
manage and report to Congress the actual cost of testing for 
the first time in the history of the Department.
    During the course of the 2000 DSB study, we considered many 
sources of information, the findings of the DSB 1999 study, as 
well as data and insight, equally as important as the data, 
gathered at on-site visits to nearly all of the test evaluation 
facilities across the United States, and extensive briefings 
from all DOD test and evaluation organizations, the DSB task 
force findings, and the implementations team.
    Recommendations are grounded in reality, and build upon a 
solid foundation of personal and historical experience data and 
analysis. Tom Christie and I served on both the 1999 and the 
2000 DSB task forces. We went everywhere. We heard every word 
that has ever been written about testing, believe me.
    In closing, I want to say that I agree with the committee 
that our soldiers, sailors, airmen, and marines must have 
weapons systems that work in combat. Everybody agrees to that. 
Their lives depend on it. This vital legislation, like your 
previous legislation that created the DOT&E, which took a long 
time, and a big hill to climb, is another critical step toward 
helping the Department meet its responsibility to adequately 
test weapons systems before putting them in the hands of our 
servicemen and women.
    I sincerely appreciate the work of this subcommittee and 
what this legislation will achieve. I will be happy to answer 
any questions.
    Thank you.
    [The prepared statement of Mr. Krings follows:]

               Prepared Statement by Hon. John E. Krings

    Good morning, Madam Chairman, and members of your subcommittee. 
Thank you for the opportunity to appear before you to discuss my views 
on the proposed legislation to improve the management of Department of 
Defense test and evaluation facilities.
    I spent 15 years as a fighter pilot in the Air Force and Air 
National Guard, and 30 years as an experimental test pilot with 
McDonnell Aircraft Company before appearing here as the first DOT&E. I 
have remained actively engaged in T&E since leaving the Pentagon.
    First, I want to congratulate you. From my point of view, this is 
the most significant test and evaluation legislation since 1983 when 
the U.S. Congress established the position of Director, Operational 
Test and Evaluation. It addresses long-standing problems identified 
more than 30 years ago by the President's Blue Ribbon Defense Panel, 
problems that have been underscored by dozens of studies and reports 
ever since, including the 1999 and 2000 reports of the Defense Science 
Board Task Force on Test and Evaluation; and The Director, Operational 
Test and Evaluation's annual report for fiscal year 2001.
    This morning, I will comment on the findings and recommendations of 
these studies, the proposed legislation, the current state of the 
Department's test and evaluation facilities and the basis for the DSB 
Task Force's findings.
    From my point of view, the committee's recommendation to establish 
a Department of Defense Resource Enterprise (T&E/RE) is the most 
important part of this proposed legislation for several reasons.
    The current funding for essential maintenance and modernization of 
the test infrastructure is inadequate. We recognize this and we 
understand why. The services don't make the required investments in 
test resources and facilities because test and evaluation competes with 
service programs. The result is that over a period of decades, service 
managed and funded test and evaluation facilities have deteriorated to 
the point where they cannot support adequate testing of today's weapon 
systems. Sixty-seven percent of the test facilities are more than 30 
years old, and 41 percent are over 40 years old. The recapitalization 
rate is 400 years! These facilities are not able to support adequate 
testing and evaluation of new, emerging, and leap-ahead systems without 
prudent investments in modernization.
    The enterprise envisioned in this proposed legislation will 
consolidate funding and modernize the infrastructure by looking across 
the MRTFB, and make the best investments for all of DOD. The net result 
is all the services will get the affordable test resources and 
facilities they need to adequately and jointly test their current and 
future weapon systems.
    As proposed in the DSB report, in addition to consolidating the 
funding, the T&E/RE will manage the test ranges and test facilities 
through a board of directors with representatives from the MRTFB. This 
management plan has been discussed, debated, and validated, and is a 
major part of the implementation. Essentially, it allows members of the 
test community from the various major ranges and test facilities to 
participate effectively in managing test resource allocation and 
investment.
    Some will likely argue that the Office of the Secretary of Defense 
is just taking away resources from the services and building another 
bureaucracy. The reality is test ranges and facilities will be better 
funded, and they will be intimately involved in the decisions as to how 
the money will be spent. As a result, a service program manager will 
have the entire national range complex resources available for testing, 
not a single service capability. Most importantly, there will be 
accountability and sunshine on the process.
    When this administration took office, the Defense Transition Team 
asked me to help two members of the team who had read the DSB 2000 
Report on Test and Evaluation Capabilities. They said Secretary 
Rumsfeld wanted a DOT&E that could implement the DSB recommendations 
and he believed Mr. Christie was the best candidate. Tom Christie 
didn't ask to be the DOT&E. Tom became a candidate only because the 
transition team convinced him that he was the only one who could 
effectively implement the DSB recommendations he authored. He has 
continuously avoided any activities or expressions that would suggest 
he is personally seeking additional funding for his organization.
    The transition team then recommended that Mr. Christie appoint a 
team of outside experts to write an implementation plan. I was asked to 
lead the team. We wrote and delivered a comprehensive implementation 
plan and schedule. We recommended a unified concept, like the concept 
in the DSB Report, giving prominent roles to the technical directors in 
the field.
    The implementation plan includes a financial accounting system that 
will enable the Department to track, manage, and report to Congress the 
actual cost of testing for the first time in the history of the 
Department.
    During the course of the 2000 DSB study, we considered many sources 
of information: the findings of the DSB 1999 study, as well as data and 
insight gathered during on-site visits to nearly all test and 
evaluation facilities across the United States; and extensive briefings 
from all DOD test and evaluation organizations. The DSB Task Force's 
findings, and the implementation team's recommendations are grounded in 
reality and built upon a solid foundation of personal and historical 
experience, data, and analysis. Tom Christie and I served on both the 
1999 and 2000 DSB Task Forces.
    In closing I want to say that I agree with the committee that our 
soldiers, sailors, airmen, and marines must have weapon systems that 
work in combat. Their lives depend on it. This vital legislation, like 
your previous legislation that created the DOT&E is another critical 
step toward helping the Department meet its responsibility to 
adequately test weapons systems before putting them in the hands of our 
service men and women.
    I sincerely appreciate the work of the subcommittee and what this 
legislation will achieve. I will be happy to answer any questions.

    Senator Landrieu. Thank you very much, all excellent 
statements. I really think it is going to get us off to a good 
start for this discussion. The best news I have heard is that 
there really does seem to be complete agreement from the 
Department and from the gentleman that has led this important 
report. Our goal seems to be the same, to have a system where 
the incentives are in the right places to do the right things 
to get a flexible but thorough testing system for our 
Department of Defense so it can support the best military in 
the world. To be open to new acquisition strategies, with a 
testing mechanism that we can be certain we are getting to the 
warfighter what they need and the taxpayer the best bargain and 
best investment process, so I am very encouraged by all 
panelists having that goal. The questions, of course, are going 
to be about how best to get there.
    Second, I want to thank you, Mr. Christie and Mr. Krings, 
for being very brave, in the sense. I have been in this 
business now a long time, and it is very rare that you actually 
see someone that will serve on the committee and then volunteer 
and go to Washington to try and implement the recommendations 
of the task force. That alone is worth commending you both for 
your good work and for stepping forward.
    Let me begin by asking if there is--since I heard a 
consensus of the goal, I want to make sure that we also have a 
consensus about the depth or the seriousness of the problem, so 
I am going to ask each panelist if you agree with some of the 
findings of this report, and I am just going to ask three 
questions, just answer yes or no.
    Mr. Young and Mr. Wynne, do you agree that the 
infrastructure that has been highlighted in this report is 
about 400 years, the recapitalization rate is about 400 years, 
and the architect is about 70 years? Do you generally agree 
with that assessment of the condition of the testing facility?
    Mr. Wynne. Yes, ma'am. I would only say that is adequate 
for testing all of the equipment that we have given them, and 
the funding is proffered when the testing is inadequate, but we 
are trying to get all of our facilities down to a 67-year 
recapitalization rate and that is a subject of a separate 
committee.
    Senator Landrieu. To a 6 to 7 year?
    Mr. Wynne. 67.
    Senator Landrieu. 67, down from 400?
    Mr. Wynne. Yes, ma'am.
    Senator Landrieu. Okay. Mr. Young.
    Mr. Young. I do not have the specific numbers, but I would 
agree with what Mike said, across the infrastructure we have 
problems. I do not know that the test infrastructure is an 
anomaly but all of the DOD infrastructure needs to be brought 
down to, as he said, a 67-year recapitalization rate.
    Senator Landrieu. Do you agree with the general finding 
that 66 percent of the Air Force program stopped operational 
testing due to a major system or safety shortcoming? Do your 
records reflect that or acknowledge that?
    Mr. Wynne. I would say that comes from the 1990s, early 
1990s. It may not reflect what is going on today, but I would 
say it this way, that airplanes that we deliver to our Air 
Force go through a thorough scrub, and before any operational 
characteristics are changed. The stopping or starting of test 
is a natural fall-out of essentially trying to aggressively 
meet high-G requirements, high bomb accuracy requirements, and 
as far as the segmentation into safety versus nonsafety, safety 
is our first concern, always, and some of those safety aspects 
you do not run into until you get into a serious operational 
test, so I cannot agree or disagree that the current stats 
would mirror or not mirror that number.
    Senator Landrieu. But in your testimony, and the reason I 
asked those questions, in both of your testimony you 
acknowledge that the problems do exist, that you are in the 
process of addressing them. You seem to acknowledge that the 
fundamental basis of this report that there are some 
shortcomings and areas that needed to be addressed, is that 
correct?
    Mr. Wynne. Yes, ma'am. In every aspect of the management of 
our government we can identify those areas where we can 
improve, no doubt about it.
    Senator Landrieu. Mr. Christie, let me ask you, since you 
have had a long experience in this field, what do you think the 
chances are that you would be able to get an agreement with the 
Department on some of the issues that you have acknowledged, 
either with or without this legislation? If we did not push 
forward with some of the pieces or all of the pieces in this 
legislation, what do you think the impact on the test and 
evaluation will be in 2 or 3 years?
    Mr. Christie. As I said, I think we have made some 
progress. The waivers process is, in fact, one that we have 
addressed within the building, and the United States Navy, 
which was identified as the culprit, as I recall, in the report 
has, in fact, changed the process--we are talking about waivers 
now of testing requirements, not waivers of operational 
requirements per se. When we have a requirement, an operational 
requirement that is on the books, we should at least gather 
data that permits one to evaluate whether we are effective in 
meeting that requirement. The Navy has changed their process 
with respect to that.
    As far as 2 or 3 years from now, the sooner we get underway 
with making some of these changes, and I think a very important 
issue is the institutional funding----
    Senator Landrieu. The funding piece. The waivers we seem to 
be making progress on.
    Mr. Christie. Yes.
    Senator Landrieu. It's the funding.
    Mr. Christie. The funding piece is another issue. There has 
been some progress there as far as proper institutional 
funding, but I am not about to say that it would solve the 
problems that I think were highlighted in that DSB report. The 
services have competing requirements when they put their POMs 
together and their budgets together, and I understand that, but 
that has led to problems with the ranges and our ability to 
conduct adequate tests over the years, and continues to do so.
    Senator Landrieu. On the funding issue, and I cannot find 
the exact statement, but I remember reading about the--here it 
is. On that issue, because we seem to acknowledge that funding 
and the--usually competition is good, but I am not certain in 
this particular instance this competition between acquisition 
and testing is very helpful and that is one of the issues we 
are trying to focus on, but according to the budget request 
this year, the Army proposed not to increase its testing and 
evaluation, but to decrease it from $128 to $123 million. The 
Navy did not, even with this report and even with the work, 
offer to increase its testing, but it decreased from $123 to 
$118 million, and the Air Force did the same, from $125 to $90 
million, so the words about the importance of testing, that we 
are underfunded and we need more money, do not seem to be 
reflected in the budget, so the amount of funding is a problem, 
but also the system that we have funding competing with 
acquisition seems to be a problem.
    Mr. Krings, one more question and then I will turn it over 
to my colleagues. You spoke very passionately about this 
subject. I am always impressed with people who seem to come to 
the table with a lot of direct experience. What, in your 
experience as a fighter pilot, or in your association with the 
contractor that you worked for, led you to be interested in 
this, and why you think it is so important that this 
subcommittee really try to work with the Department and the 
services to try to come up with a better system?
    Mr. Krings. I think most of my passion for this particular 
effort came when I was the DOT&E. I naively came to this job--
and Senator Bingaman may remember. I suggested at one time 
during my hearing that maybe we would just put a DOT in for a 
couple of years, and everybody would straighten out, and then 
we could walk away and everything would work well. Well, I got 
a lot of ridicule about that. It is more like straightening 
teeth. You take the wires off and they go right back where they 
were again.
    So I did not realize at that time that the competition that 
exists between the services--which is good at times. I am not 
arguing with that, but in this particular case it does seem to 
me that the ownership, and making a national range, would 
benefit everywhere. We do have, as we speak today, significant 
limitations due to resources in the major programs that are 
going on.
    I just did two Red Team reviews for the Air Force on the F-
22, and we have significant problems in the F-22 in terms of 
resources. We can only shoot one Advanced Medium-Range Air-to-
Air Missile (AMRAAM) a month in this country. That is kind of 
hard to imagine, but that is because it is not a national 
basis. So when we began to see unified and joint operations and 
we said we are going to train like we fight, meaning we are 
going to train jointly, it seemed natural to say we are going 
to test like we fight, which means we would test jointly, and 
the concept of a national range, people putting things together 
and not duplicating things, it just--the more you look around, 
if anyone in this room went on the trip that we went on, the 
same result would come up. You do not really have to have all 
that experience. You can see it. They will tell you that when 
you go out and talk to them.
    So this is a response from the people who have to do the 
job every day, as opposed to those who might sit back here and 
think they know how to do the job every day, and one gets 
rather passionate when you see things not being done well, and 
the ability to fix it is there.
    Senator Landrieu. My time has expired, but this 
subcommittee under Senator Roberts' leadership has done a great 
job in trying to focus our efforts toward jointness, toward 
working together, recognizing that competition is good, but 
cooperation is also very good, and the sharing of resources, 
minimizing cost, and maximizing the result, so I hope that this 
hearing will be helpful to us. We have already identified some 
pieces of the legislation that we could agree on, some that 
might need additional work, and I look forward to working with 
Senator Roberts to try to present to Congress something that 
will be really beneficial and continue to move us toward a 
reform system.
    Senator Roberts.
    Senator Roberts. Thank you to my colleague and my chairman.
    Are you a chairlady or chairwoman or chairperson----
    Senator Landrieu. I answer to just about anything, as long 
as you call me and do not forget me.
    Senator Roberts. I thank my friend.
    Senator Landrieu. Good.
    Senator Roberts. Mr. Young, the chairman indicated the 
service requests, which were somewhat under last year's, and it 
occurred to me that all of your testimony reflects a lack of 
funding. We are pretty good at pointing fingers at the 
services, and at people like yourself, but Congress has not 
always been very supportive of fully funding the test and 
evaluation infrastructure, and I know this has been a problem 
in recent years. What has been the impact of that?
    Mr. Young. Sir, if you will allow me the privilege of 
sitting on your side of the table for a minute, because in 
working for 10 years for the Senate Appropriations Committee I 
was part of making recommendations to the committee and 
reviewing the budget. I think those processes have had a 
significant effect on the test ranges, and the Department as a 
whole does not want to put money at risk when they ask for 
money.
    For example, in fiscal years 1998, 1999, and 2000, funds 
for the Navy and Air Force test ranges, the MRTFB funds that 
sustain those ranges were cut $15 to $25 million each year. At 
that point, the Department tends to get very concerned about 
making sure they can totally defend the budget request. The 
services tend not to put resources into activities that 
Congress reduces year after year. However, I can tell you the 
Army T&E lines in total grow about 13 percent over the FYDP, 
the Air Force lines grow 25 percent over the FYDP, and the Navy 
lines stay paced just ahead of inflation.
    The chairman talked about a couple of specific lines, but 
there are three or four lines that pay the bills to operate the 
ranges, then there are a couple of lines that modernize the 
ranges and those modernization lines do fluctuate, depending on 
what equipment you need to buy for a range at a given time. 
However, on the whole, the trend is that we have lost money, if 
you will, over the last several years on the Hill, and the 
Department currently has a budget which reverses that trend to 
a pretty good degree, and we are defending those moneys 
aggressively.
    Senator Roberts. I am tempted to ask you about the attitude 
of some of the appropriators, but I will not put you on the 
spot.
    Mr. Young. They are excellent people, sir. [Laughter.]
    Senator Landrieu. Please do not get us in any more trouble 
than we are already in.
    Senator Roberts. In the House of Representatives, in which 
I used to serve, there were times that I felt there should be a 
hunting season for appropriators. I love appropriators in the 
Senate. I carry their bags, I press their ties, I clean their 
windows.
    Senator Landrieu. He does not realize I am now one, an 
appropriator, you see. I am taking this back.
    Senator Roberts. Yes, that is one of the reasons I am 
saying this. [Laughter.]
    We will talk to Ted and Danny and see if we cannot make 
some improvements.
    I have a question of Mr. Christie, 16 of 25 is pretty good. 
I might add that Kobe Bryant did not hit that many last night, 
but maybe Michael Jordan--but at any rate, many are called and 
few are chosen, and I want to thank you for your willingness to 
take up a position of responsibility where you had been in the 
advice category--and I am desperately looking here for your 
statement.
    On page 9, ``So what we may have here is a difference in 
schedule for transformation, not necessarily one of different 
goals. Addressing an issue does not necessarily mean the 
Department will come up with a solution, much less one that 
matches the DSB, or proposed legislation which I have said 
follows the DSB recommendations very closely. Nevertheless, the 
direction the Department is taking is an acknowledgement there 
is a problem and improvement is necessary. You have my 
commitment I will find an appropriate solution.'' I want to 
thank you for that statement.
    Then you also said on page 11, ``A review of the 
legislation shows it to match the DSB recommendations in many 
respects. However, the legislation could cause us problems. The 
Department desires the opportunity to discuss the proposed 
Senate legislative objectives internally, as well as with your 
committee. We believe that together we can develop a plan. . . 
.'' Which is the suggestion of the chairman, and I think is a 
good suggestion, so I thank you.
    Let me ask you the question. You stated in your annual 
report that the organizational and the budgetary 
recommendations in the DSB study are needed, though 
controversial, and the Department chose not to implement these 
recommendations.
    Just a real quick summary on why the DOD chose not to 
implement the DSB recommendation to establish a department of 
test and evaluation resource enterprise. That is quite an 
acronym mouthful. That is DTE--never mind.
    Mr. Christie. Well, the biggie, which is the DOD test and 
evaluation enterprise, was, in fact, brought before the Senior 
Executive Council, which consists of the three service 
secretaries, the Under Secretary of Defense for Acquisition, 
and is chaired by the Deputy Secretary. All major decisions 
policywise as well as many of the major budget decisions are, 
in fact, put in front of that group.
    I and Jack Krings here, who had developed the 
implementation plan, had the honor of presenting our proposal 
to that group, and met with, not surprisingly, opposition from 
the services. That was expected, and we have heard Mr. Young in 
particular discuss that today--why the services feel so 
strongly about this.
    What happened, this was in mid-August, mid to late August--
--
    Senator Roberts. Of last year.
    Mr. Christie. The decision was sort of, kick the can down 
the road. It was clear the services were adamantly opposed. 
There was no decision made, and we will come back and talk 
about this at some future date, and then September 11 came, and 
there was no further serious discussion again of this issue 
before the end of the year.
    The fact that the issue is still there in the context of 
more adequate T&E, to include possibly this way of doing 
business, is borne out by some of the direction that I talk 
about in my statement that appears in the planning guidance. 
That is for 2004, but that is another year. The planning 
guidance says, let us develop a strategic plan to address these 
issues and include it in next year's budget.
    Senator Roberts. One of the suggestions I am going to make, 
and I would inform the chairman, instead of 2004 we do it in 2 
weeks. In other words, that you get back to us in 2 weeks, more 
especially Mr. Wynne and others, to recommend what you could 
live with, how you could implement this legislation, making 
some suggestions. I realize that 2 weeks and 2004 is a little 
bit off, to say the least, but I think since the legislation is 
in the mark, and since it will be on the floor--it is not on 
the House side, but we would rather work with you to see if we 
could come up with some reasonable agreement, if we possibly 
can.
    Elliott Cohen said in this month's Foreign Affairs, and yet 
the Predator, the UAV, one of the technological stars of 
Afghanistan and Kosovo, was judged not operationally effective 
or suitable by the Pentagon's Office of Testing and Evaluation 
in 2001 and this determination had less to do with the 
qualities of the Predator than it did with the extraordinary 
standards for effectiveness set by the Department. It was a 
classic case of impossibly demanding requirements causing the 
Pentagon to disparage its own systems, creating pressure to 
defer adequate acquisition of what is good today in a perpetual 
quest for the extraordinary system that will do anything and 
everything tomorrow.
    How true is that statement?
    Mr. Christie. Well, let's address the Predator. Yes, we 
evaluated that system against the stated operational 
requirements on the part of the United States Air Force, and in 
fact there was an article yesterday in the Aerospace Daily--I 
think it was yesterday or the day before--that discussed the 
two recent crashes and the board that had investigated them. 
They found two causes for the crashes, a different cause for 
each accident.
    The first one was--the system I think was operating in 
weather--that the deicing system had not worked. That also was 
pointed out in our report.
    The second cause was that the hand-off between systems was 
not executed properly. In fact, during the operational test, 
because they could not execute that, they did not test that 
aspect, in other words, handing off from one Predator to 
another. I think that article states that both of these 
deficiencies were highlighted in the DOT&E report. In summary, 
it did not meet its operational requirements as spelled out in 
the operational requirements document.
    This is not to say we should not have deployed it. I am not 
saying that.
    Senator Roberts. Right, exactly. That is the point I am 
trying to make.
    Mr. Christie. You still have a capability there, but it is 
not what we thought we bought, or what we stated it should have 
been doing.
    Senator Roberts. There is nothing like a war to make you 
change your mind.
    Senator Landrieu. That is true, but I want to interject, if 
I could, as is my liberty as chair, to say that a solution, or 
one of the keys that we want to get to is, if you knew it did 
not pass the deicing test, and it went into the battlefield, 
you should not have flown it in ice.
    Mr. Christie. I do not know that it flew in ice, but it is 
very likely it did.
    Senator Landrieu. Or whatever. I mean, if that was the 
problem. I do not know if that was the problem. It is not a 
question of whether you deploy it and keep it in the shop or 
send it to the battlefield, but the system, or the testing is 
such that the information is passed from the test to the 
battlefield, so if it did not pass the test, not to push the 
equipment so you hopefully save lives.
    Mr. Wynne. Madam Chairman, actually you do push it. 
Actually, because you think it may work, and you need that 
capability, and the effect is dramatic, and in fact we have not 
lost that many Predators in this engagement that would not 
allow us to push the envelope, and I do not know about this 
particular instance, about the heaviness or the lightness of 
it, but in fact in every engagement like this, even with the 
results of these two fine gentlemen, we would push the system 
and expect to push Predator almost to the limit.
    Senator Roberts. For a command decision, if you have a very 
important mission, you are going to push the envelope. You are 
going to fly the bird. I mean, after all, it is unmanned. 
Albeit, you do not want anything to go wrong with it, but it 
would depend on the mission and the command.
    Actually, my question was, is there a danger that rigid 
test criteria imposed by Congress, or internally at DOD, could 
harm major systems acquisition reform by making spiral 
acquisitions in the development of fieldable prototypes just as 
burdensome as the current process?
    Mr. Christie. I do not see that happening, in fact. My job 
is not to tell the Secretary of Defense or the operational 
commanders that they should or should not deploy a system, or 
should or should not buy a system. But, if the service, in this 
case the United States Air Force, says this is what this 
aircraft or this particular system is supposed to do, and 
spells that out very explicitly, then we should test against 
it, and if it fails, that should be reported, and then the 
decisionmaker makes his decision.
    Like Mike says, they may have decided, and did, that has 
capability that we need there. I think we will have the same 
situations arise in spiral development. We will test the 
system--in fact, establish criteria--and then test against 
them, and we will report the results.
    Mr. Krings. As a professional long-term envelope-pusher, we 
never recommend that the field go beyond where the testing has 
been, because there may or may not be a cliff there. There may 
be a gentle slope. The fact that it is unmanned really does not 
make much difference, because there are often people on the 
ground, or people relying on that, and I do not think that is 
done very often, certainly not successfully very often
    So consequently you are absolutely right, we do not always 
get all the testing done, but the key is to tag it and say what 
it can do, what it cannot do, do not go past here because we do 
not know what the results are, and we put many things into the 
field and should and would, and will continue to, before they 
are fully developed, or before they are fully tested, but we 
have to put a tag on there about what has been done and what 
has not been done so that the CINC or whoever is operating it--
--
    Senator Landrieu. Can make an informed decision.
    Mr. Krings. Sure.
    Mr. Wynne. I have tremendous respect for both Tom Christie, 
who I have admired for a long time, and Jack Krings, who I have 
admired for a long time, and has been of enormous assistance to 
me in the past.
    I will say only that we rely on the personalities that are 
sitting at this table to be rational, but this legislation 
unbalances the balance that is currently in the acquisition, 
and in a different setting at a different time the DOT&E could 
force the Secretary or Deputy Secretary in each occasion to 
make a determination, and I just think that that burdens the 
Secretary and puts the system at risk, if you will, for 
schedule and for delivery to our soldiers, so I do share 
Senator Roberts' opinion on that.
    Mr. Young. Can I make one brief comment? The requirements 
process we have talked about is not a science. We do our best 
to set the requirements, but I think if I understood Senator 
Roberts' comment we do in the end want to get systems in the 
field. It is very painful when the experts here at the table 
say a system is not operationally effective and suitable, but 
in the case of Predator it has proven to be operationally 
useful, if I could use that word. I think you have seen some 
writings of Admiral Blair and other people, that say they want 
systems, especially systems that are not directly putting 
people's lives in danger out there in the fleet as soon as we 
can provide them.
    For example, there is electronic warfare software that is 
being developed for surface ships rode on the Anzio the other 
day. We want to deploy it as fast as we can. It has not been 
operationally tested, but it would be a tragedy if we do not 
get it in the hands of the fleet as soon as possible. So we do 
have to look at adjusting the test process to get systems in 
the hands of users, assess them fairly, and recognize that the 
requirements process is not a science. We may get close but not 
over the bar, and yet close was darned good when you need it in 
Afghanistan.
    Senator Landrieu. Okay. Senator Bingaman, and we are going 
to have a vote in a few moments, but my intention is to finish 
this round of questioning and then probably go vote, and wrap 
up before we go vote.
    Go ahead, Senator Bingaman.
    Senator Bingaman. Thank you very much. My concern on this 
is the current situation, which we have had, really, since I 
have been here--I have been on this committee now 20 years, and 
I think that the situation has deteriorated as far as 
investments during that time, investment in our test 
facilities.
    The way I am thinking about it--and this is to paraphrase 
some of the testimony you have already given here, but just to 
see if I have got it right--there is a disincentive on the part 
of the services to invest in testing, in resources, and in 
facilities. You say in your testimony the services do not make 
the required investments in test resources, and so the test and 
evaluation competes with service programs. Does anybody 
disagree with that?
    Mr. Wynne. Sir, there is competition throughout. We just 
cannot buy everything that is asked for.
    Senator Bingaman. I understand, but it seems to me there is 
always a stronger push for the programs than there is for the 
testing facilities that have a more general purpose. That 
causes the testing facilities to ratchet up their costs, 
because they have to find resources somewhere. They add more 
and more overhead to the cost of doing tests. That creates a 
further disincentive on the part of the services to use those 
facilities, so there is a reluctance to test, which is an end 
result of the process.
    Unless we can find a way to ensure that adequate funding 
goes into the infrastructure for this test and evaluation 
function, then we cannot break out of this downward spiral, as 
I see it, and I think that is what we are trying to do in this 
legislation.
    I do not know, the only alternative I have heard is that we 
are going to do better by trying to get some resources to 
these, but I did not really hear that from you, as I understood 
it. Your comment was that the resources are about where they 
ought to be.
    Mr. Wynne. Sir, I would say that the way the President's 
budget and the 5-year defense plan lays out, the resources 
going into the test and evaluation line are increasing over 
time. One of the comments I would make is, this addresses one 
part of the test facilities. Secretary Young addressed the 
other developmental tests. My partner here, Mr. Christie, also 
addressed the developmental test issues. That is not covered by 
this legislation, so that it would create another tension and 
imbalance in, maybe, that distribution of investment as well.
    Senator Bingaman. Let me ask both Mr. Christie and Mr. 
Krings to just comment on whether they think an imbalance is 
created by trying--as I see what we are trying to do in this 
legislation, we are trying to cordon off a certain amount of 
resources and say, this should go to basic infrastructure so 
that these test facilities do not have to add so much overhead 
to the cost of doing test for the services, so that we do not 
have the disincentive on the part of the services to do the 
testing.
    Does that not make some sense, Mr. Christie?
    Mr. Christie. Of course, and I am a big supporter, and one 
of the big recommendations in that report is to emphasize more 
the institutionalized funding of these facilities--and the 
facilities are not just hardware or buildings, they are people 
also, a big part of that. The disincentive we are talking about 
is, as those dollars have gone down for these test facilities, 
they have had to charge an increasingly large share to the 
programs, the acquisition programs, for their testing. The 
acquisition programs have had to pay for a growing share of the 
overhead costs, and that, to me, is the disincentive for 
testing.
    Now, on the front end of that, how much money goes into 
those accounts, I do not know that there is a disincentive on 
the part of the services to fund those accounts. They compete 
with not just the acquisition programs, but with operations and 
maintenance and so forth, and yes, I want to see more money 
into the institutional funding, such that the programs do not 
have to pay that increasing share.
    With all due respect, what is in the FYDP I think, is 
growth in the outyears, but we never get there.
    Mr. Krings. Also, just to make something clear, we are 
talking about the resources and facilities, not the act of 
testing, or the act of evaluation. It is clearly done by the 
services, but what happens--and all testing is done with these 
facilities, development testing, research testing, operational 
testing. It is not just operational, all testing is done there, 
so all communities that test.
    Interestingly enough, a lot of allies come over and test in 
these facilities, because we have the best in the world, so 
everybody pays for this. The key element is, though, like the 
B-2 program, a significant cost in the B-2 test program was 
building South Base, a hither to classified test facility. That 
is a lot of money.
    So if you need something in your program and it is not 
there, guess who gets to pay for it, your program, so that 
takes money away from testing. You then have test problems, 
which stretch out your testing, and the next thing, there is 
not enough money to get the testing finished, and we have many 
programs today, as we speak, that are in exactly that same 
position. They have had to take money that was allocated for 
testing, and use it to build infrastructure because it was 
their turn, and it was not there, and they need it, and they 
need to get the job done, so it is not uncommon.
    Senator Bingaman. I will stop with that, Madam Chairman. 
Thank you.
    Senator Landrieu. Thank you. We have been joined by 
Chairman Levin, and I believe he has a few questions, and we 
are very happy, Mr. Chairman, that you have joined us for this 
important hearing. I said when you came in we have gotten some 
groundwork covered in this hearing, and there seems to be some 
consensus about our legislation, but still some areas of 
disagreement, and we are hoping to work through them.
    Chairman Levin. Thank you very much, Madam Chairman, and 
thank you for this hearing. It is a very important subject that 
may seem dry or arcane or complex to a lot of people, but there 
is an awful lot riding on it, and I just want to congratulate 
you, Senator Bingaman and others who have worked so hard on 
this issue. I know Senator Roberts has a great interest in this 
issue, and hopefully we will be able to maintain the thrust of 
this language and do whatever revisions are appropriate, but to 
keep the thrust of what we are trying to do here.
    I want to just briefly read the paragraph in the Defense 
Science Board's task force on the test and evaluation 
facilities, and I do not think this paragraph has been read yet 
this morning, and here is what it says, and of course, Mr. 
Krings is here this morning to represent the Defense Science 
Board's report.
    `` The unwillingness of the services to provide adequate 
resources for T&E, while still maintaining substantial 
redundant capabilities, suggest that a change is needed. The 
current funding structure of the Department's T&E facilities 
does not lead to long-range business planning, and it is not 
possible for them to make investment decisions based on future 
utilization or a business-like return on assets analyses.
    Centralized, consolidated management of T&E facilities 
within the Department of Defense could overcome many of these 
serious problems. A defense T&E resource enterprise evolved 
from a central test and evaluation investment program will 
significantly improve DOD testing by optimizing test resource 
investments and streamlining the management of these vital 
assets, including both personnel and facilities.''
    So my question is of Mr. Christie, who was a member of that 
task force, as to whether he agreed with the task force's 
findings and recommendations regarding the establishment of a 
T&E resource enterprise at the time the report was written.
    Now, I am also going to ask you what your current view is 
on it, but at the time the report was written, did you agree 
with that report?
    Mr. Christie. Of course. I was part of the study, and I 
agreed with that.
    Chairman Levin. Now, do you agree with those findings 
today?
    Mr. Christie. Well, I am not disavowing those findings. I 
am living in a different world today, and I have to adhere to 
decisions that are made in the building, which I am doing, but 
I helped author that report, and certainly agree with the 
findings.
    Chairman Levin. Thank you.
    Senator Landrieu. Thank you, Mr. Chairman, for coming. The 
vote has been called, and I am going to suggest that we just 
give summary remarks and then close this hearing. I think it 
has been very helpful and, as you can see, there are many 
members of our committee that feel strongly about acknowledging 
that the status quo is just not going to do. I mean, there are 
clearly some places that need significant improvement, and I do 
believe that this legislation helps us to move in that 
direction. If there are places that are imperfect, or some 
language that we could modify to meet some of the comments made 
this morning, I am open to it, but I wanted to see if Senator 
Roberts had a couple of suggestions, too, and then we will try 
to close up.
    Senator Roberts. I was going to ask for the record--and I 
am just going to make this statement, and perhaps Mr. Wynne you 
can get back to me, or Mr. Young, and Mr. Christie. What would 
be the impact of the proposed legislation on planned or ongoing 
testing of existing programs, and the ones I picked pretty well 
track what we are into in regards to transformation and the war 
on terrorism, and the asymmetrical threat that we face, such 
as, for example, the Air Force's joint strike fighter, the 
Navy's cooperative engagement capability, the V-22 Osprey for 
the Marines, and the Army's Comanche attack helicopter. What 
parts of the T&E infrastructure are critical to effectively 
test these programs?
    [The information referred to follows:]

    Mr. Wynne, Mr. Young, and Mr. Christie. The following are examples 
of major Air Force, Marine Corps, and Navy programs that are under 
development and the DOD test and evaluation facilities and ranges that 
are being used to support the programs. Also provided are comments on 
the potential impact of the Senate's proposed legislation regarding the 
management and funding of the Department's test facilities and ranges.
                           major system--jsf
1. Major System--Air Vehicle/Air System
    A. Contractor Test Facility
        LM Aero Ft Worth, TX
    B. Government Test Facilities
        NAWC-AD Patuxent River, MD
        NAWC-AD Lakehurst, NJ
        Eglin AFB, FL
        AFFTC Edwards AFB, CA
    C. Government Test Ranges
        NAWC-AD Patuxent River, MD
        AFFTC Edwards AFB, CA
        NAWC-WD China Lake, Pt Mugu, CA
        Nellis Test and Training Range, NV
2. Major System--Propulsion
    A. Contractor Test Facilities
        Pratt and Whitney West Palm Beach, FL and East Hartford, CT
        General Electric Evandale, OH and Peebles, OH
    B. Government Test Facilities
        AEDC Tullahoma, TN
        NAWC-AD Patuxent River, MD
        AFFTC Edwards AFB, CA
        NAWC-WD China Lake, Pt. Mugu, CA
    C. Government Test Ranges
        NAWC-AD Patuxent River, MD
        AFFTC Edwards AFB, CA
        NAWC-WD China Lake, Pt Mugu, CA
3. Major System--Mission Systems*
    A. Contractor Test Facilities
        Northrup Grumman El Segundo, CA and Baltimore, MD
        LM Aero Ft Worth, TX
        BAE Systems--Sanders Nashua, NH
        LMMFC Orlando, FL
        Boscombe Down, UK
    B. Government Test Facilities
        Wright-Patterson AFB, OH
        NAWC-AD Patuxent River, MD
        NAWC-AD Lakehurst, NJ
        AFFTC Edwards AFB, CA
        Rome Labs, NY
        RFSS Redstone Arsenal, AL
        NWSC Crane, IN
        Holloman AFB, NM
        NAWC-WD China Lakc, Pt Mugu, CA
    C. Government Test Ranges
        NAWC-AD Patuxent River, MD
        AFFTC Edwards AFB, CA
        NAWC-WD China Lake, Pt Mugu, CA
        Nellis Test and Training Range, NV

    *Mission Systems includes radar, electronic warfare suite, 
distributed aperture system, electro optical targeting system, 
communication, navigation and identification subsystems, cockpit 
systems, and armament.
    4. Legislation Impact
    A funding reduction of $123 million (i.e., 0.625 percent of $19.7 
billion) across the FYDP would reduce funding below OSD directed 
levels, increasing risk in execution of the JSF program and potentially 
resulting in schedule delays. Furthermore, funding reductions would 
deviate from agreements with JSF international partners.
                           major system--v22
1. Major System--Air Vehicle/Air System
    A. Contractor Test Facilities
        Boeing Company Rotorcraft Division, Philadelphia, PA
        Bell Helicopter Textron, Ft. Worth, TX
        Bell Helicopter Textron, Amarillo, TX
    B. Government Test Facilities
        NAWCAD PAX River, MD
        E3 and lightning facilities, PAX River, MD
        Edwards AFB, CA (MOB)
        NSWC Dahlgren, VA
        Climatic Lab, Eglin AFB, FL
        NASA Lewis Research Eacility, OH
    C. Government Test Range
        Atlantic Test Range
        Ft. Huachuca, AZ
        MCAS Quantico, VA
        MCAS New River, NC
        MCAS Cherry Point, NC
        MCB Twenty Nine Palms, CA
        Pope AFB, SC
        Ft. A.P. Hill, VA
        National Guard Base, Duluth, MN (U.S. Army AQTD)
    D. Foreign Government Bases and Ranges
        Canadian Forces Base, Shearwater, Nova Scotia, Canada
2. Major System--Propulsion
    A. Contractor test Facilities
        Rolls Royce Corporation, Indianapolis, IN
    B. Government Test Facilities
        Naval Air Propulsion Center, Trenton, NJ
3. Major System--Mission Systems
    A. Contractor Test Facilities
        Boeing Company Rotorcraft Division, Philadelphia, PA
        Bell Helicopter Textron, Ft. Worth, TX
    B. Government Test Facilities
        NAWCAD PAX River, MD
        ACETEF, PAX River, MD
        E3 and lightning facilities, PAX River, MD
        Manned Flight Simulator, PAX River, MD
        Edwards AFB, CA (MOB)
        Benefield Anachoic Facility, Edwards AFB, CA
        Avionics Test and Integration Complex, Edwards AFB, CA
        NAWCAD Indianapolis, IN
        NAWCAD, Lakehurst, NJ
        Air Force Electronic Warfare Evaluation Simulator, Randolph
            AFB, San Antonio, TX
        Flight Taining Device, New River, NC
        NSWC Dahlgren, VA
        Pt. Magu, CA
    C. Government Test Range
        Atlantic Test Range
        Nevada Testing and Training Range, NV
        Utah Test Range, Hill AFB, UT
        White Sands, NM
        NAWC, China Lake (Echo Range), AZ
        Eglin AFB, FL
        MCAS New River, NC
        MCAS Yuma, AZ
        MCAS Cherry Point, NC
        Marine Corps Mountain Warfare Training Center, Bridgeport, CA
        MCB Twenty Nine Palms, CA
        FAA Tech Center, NJ
        Ft. Sumner, NM (MOB)
        Ft. Bliss, TX
        Nellis AFB, NV
        Eilson AFB, AK
        Robins AFB, Warner Robins, GA
4. Legislation Impact
    Design, development, and test for resolution of discrepancies in 
the V-22 program are funded in the restructured program in accordance 
with Blue Ribbon Panel recommendations. Preservation of this budget is 
necessary in order to maintain the recently approved restructured 
program. A reduction of RDT&E in fiscal year 2003 will necessarily 
result in extending the program. There is no assurance that the 
redistribution of these funds among test facilities and ranges will 
directly benefit the V-22 program in such a way to mitigate the impact 
of loss of funs.
         major system--cooperative engagement capability (cec)
1. Contractor Test Facility
    Raytheon, St. Petersburg, FL
2. Government Test Facilities
    NSWC Dahlgren, Dahlgren, VA (software)
    NSWC Crane, Crane, IN (hardware)
    Distributed Engineering Plant (DEP) (interoperability)
3. Government Test Ranges
    Atlantic Test Range, NAWC--Air Division, NAS Patuxent River, MD
    Atlantic Fleet Weapons Training Facility (AFWTF), Puerto Rico
4. Legislation Impact
    Post-OPEVAL, the vast majority of CEC testing will be conducted 
underway in Navy Operating Areas. CEC will not be a heavy user of 
Government Test Ranges. Therefore, the impact of this legislation would 
be the diversion of funding from the CEC Test and Evaluation effort to 
fund the Military Test Range Infrastructure. As a result less funding 
would be available to test and evaluate CEC, thereby increasing the 
risk to successful Milestone Decisions and potentially delivering a 
less effective and suitable system to the warfighter.

    Senator Roberts. I do not want you to answer that now, but 
if you could get back to that it would be helpful, and I am 
going to make a suggestion, since we have a vote on, that 
perhaps, Mr. Wynne, you could get back to us within a 2-week 
time frame on some recommendations on how you could live with 
and implement the legislation that has been authored by the 
chairman, and I think we all agree we support the goals without 
question, and work with Mr. Christie and see if you could come 
up with some legislative recommendations.
    Mr. Wynne. I would be happy to do that, Senator, and in 
fact what I would also offer is that we should do a study on 
whether the service MRTFB, which is the major test ranges, are, 
in fact, paying the operating costs, and whether the programs 
when they come in are being unfairly dinged.
    My assumption here is that even if I centralize all of the 
facilities, if I were to have a unique requirement, such as the 
B-2 range construction referred to by Mr. Krings, the program 
would still be charged for that unique requirement, because the 
central fund will not forecast future unique investment needs. 
It just cannot, because we would not tell them in some cases.
    Senator Roberts. I think that would be a very important 
study, so if you can get back to us in 2 weeks, that would be 
much appreciated, and I for one, Madam Chairman, thank the 
witnesses for taking time. It is a busy day, it is a busy time, 
I know you have other things to do, and I want to thank you for 
your leadership, and more especially you, Mr. Christie, because 
you have served in an advisory capacity, now you are in the 
responsibility saddle, and we will look together for a good 
ride.
    Senator Landrieu. Thank you all.
    Mr. Young. Could I add one comment to something Mr. Krings 
said?
    Senator Landrieu. Very quickly.
    Mr. Young. There is a central test and evaluation 
investment program line. It has been there for years. It is 
managed and run by OSD. It is within the purview of OSD to 
resource that line to modernize for the good of all programs so 
I am anxious at the suggestion the services are underresourcing 
everything. I think the study that Secretary Wynne talks about 
will show that within a few percentage points the ranges are 
resourced, and they are appropriately making investments. There 
is already an existing structure not unlike the proposed 
legislation for OSD to do central investment for the good of 
all services.
    Senator Landrieu. Well, but the problem is, without a 
constituency those lines are hard to sustain themselves through 
the process, and that is the system--we are trying to create a 
system where there is support for a robust, not tightly 
controlled, flexible, smart, robust testing system that gives 
our warfighters what they deserve, and we do not have it yet. 
That is the point of this hearing, to get something that will 
work.
    So thank you all very much.
    Mr. Wynne. Thank you very much, Madam Senator. Thank you, 
Senator Roberts.
    Senator Landrieu. We are adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
